<html>
<title> - NATIONAL WILDLIFE REFUGE SYSTEM IMPROVEMENT ACT OF 1997</title>
<body><pre>[Senate Hearing 105-286]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-286


 
        NATIONAL WILDLIFE REFUGE SYSTEM IMPROVEMENT ACT OF 1997

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1059

A BILL TO AMEND THE NATIONAL WILDLIFE REFUGE SYSTEM ADMINISTRATION ACT 
   OF 1966 TO IMPROVE THE MANAGEMENT OF THE NATIONAL WILDLIFE REFUGE 
                     SYSTEM, AND FOR OTHER PURPOSES

                               __________

                             JULY 30, 1997

                               __________

  Printed for the use of the Committee on Environment and Public Works
                                     



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
 45-159 cc                WASHINGTON : 1998
_______________________________________________________________________
               For sale by the U.S. Government Printing Office,
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402
                            ISBN 0-16-056015-2




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED FIFTH CONGRESS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)





                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 30, 1997
                           OPENING STATEMENTS

Allard, Hon. Wayne, U.S. Senator from the State of Colorado......     6
Baucus, Hon. Max, U.S. Senator from the State of Montana.........     2
Boxer, Hon. Barbara, U.S. Senator from the State of California...     4
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Graham, Hon. Bob, U.S. Senator from the State of Florida.........    12
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     7
Kempthorne, Hon. Dirk, U.S. Senator from the State of Idaho......     3

                               WITNESSES

Babbitt, Hon. Bruce, Secretary of the Interior...................     8
    Prepared statement...........................................    25
    Responses to additional questions from:
        Senator Boxer............................................    30
        Senator Inhofe...........................................    28
Mosher, James A., conservation director, Izaak Walton League of 
  America........................................................    18
    Prepared statement...........................................    32
Taylor, Gary J., legislative director, International Association 
  of Fish and Wildlife Agencies..................................    16
    Prepared statement...........................................    30
Waltman, James, director, Refuges and Wildlife Program, The 
  Wilderness Society.............................................    20
    Article, Troubles Roost at Wildlife Refuges, Memphis (TN) 
      Commercial Appeal, May 18, 1997............................    41
    Fact Sheet, ``Major Reports that Identified Problems in the 
      National Wildlife Refuge System''..........................    40
    Prepared statement...........................................    33

                          ADDITIONAL MATERIAL

Statements:
    American Mosquito Control Association........................    45
    American Petroleum Institute.................................    48
    Edison Electric Institute....................................    49
    Interstate Natural Gas Association...........................    53
Letters:
    American Mosquito Control Association........................    45
    National Rifle Association of America........................    54

                                 (iii)




        NATIONAL WILDLIFE REFUGE SYSTEM IMPROVEMENT ACT OF 1997

                              ----------                              


                        WEDNESDAY, JULY 30, 1997


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Dirksen Senate Office Building, Hon. John Chafee (chairman 
of the committee) presiding.
    Present: Senators Chafee, Kempthorne, Allard, Baucus, 
Graham, and Boxer.

OPENING STATEMENT OF HON. JOHN H. CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. We have a hearing today before the full 
committee, and the purpose of it is to solicit view on S. 1059, 
which is to improve the management of the National Wildlife 
Refuge System.
    S. 1059 is a companion bill to H.R. 1420, which recently 
passed the House by the remarkable vote of 407-1. Now, that is 
an extraordinary vote. I'm not sure who the one was, but you 
don't pass many things by 407-1.
    The National Wildlife Refuge System was started in 1903 by 
President Theodore Roosevelt with the establishment of the 
first refuge on Pelican's Island in Florida. It has since 
evolved into a system of Federal lands consisting of 509 
refuges in 50 States, covering 93 million acres for the 
conservation of fish, wildlife, and plants.
    Despite 60 years of growth, however, the Refuge System 
remained without law governing its administration until 1966 
when Congress passed the National Wildlife Refuge System 
Administration Act. Even now, almost a century later, there is 
no law that identifies a mission or articulates guidance for 
the refuge management.
    The 1966 Act brought the diverse collection of refuges into 
a unified system of management and authorized the Secretary of 
the Interior to allow secondary uses on a refuge, provided they 
are ``compatible with the purposes'' for which the refuge has 
been established. The allowance of compatible uses has become a 
cornerstone of the Refuge System, balancing the needs of the 
fish, wildlife, and plants for which the refuge was established 
with our own ability to use and enjoy the refuge for a wide 
variety of activities.
    However, the Refuge System still lacks a true Organic Act, 
a basic statute that articulates an overall mission for the 
System and that gives refuge managers guidance in determining 
what activities are in fact compatible with the purposes of the 
Refuge.
    Most refuges have been established by the Secretary of the 
Interior over the years under a broad range of statutory 
authorities, while others have been established by specific 
Acts of Congress. These disparate sources of authority, along 
with the lack of general mission and guidance for the Refuge 
System have led to inconsistency in the management of 
individual Refuges. This inconsistency, and other problems with 
secondary uses of refuges, have been the subject of numerous 
studies over the last two decades, as well as a lawsuit brought 
by several environmental groups in 1992.
    For several years both sides of the aisle and both sides of 
the Capitol have attempted to enact legislation to rectify this 
situation. The President has also taken administrative steps 
for improved Refuge management with an Executive order issued 
in March 1996.
    Earlier this year, after a month of negotiations among a 
broad range of stakeholders, the House passed H.R. 1420, which 
I previously referred to. It is incumbent upon us to 
expeditiously take up this legislation. Last week I, along with 
Senators Kempthorne and Graham, introduced S. 1059, which 
virtually mirrors the House bill, H.R. 1420, except for two 
fairly narrow, but important, changes. Both bills establish the 
mission of the Refuge System as one to conserve fish, wildlife, 
plants, and their habitat. Both bills allow compatible uses on 
refuges, but give priority to wildlife-dependent recreational 
uses, such as wildlife observation, hunting, and fishing. The 
bills give substantive guidance and procedures for determining 
whether uses are compatible with both the mission of the 
overall system and the purposes of the individual refuge. The 
bills require comprehensive conservation plans for each refuge.
    One difference between these two bills is that the Senate 
bill clarifies that compatible uses can be both wildlife-
dependent and other uses. The other difference is that the 
Senate bill requires monitoring of the status and trends of 
fish, wildlife, and plants on refuges.
    My hope is to mark up 1059, and have it signed by the 
President quickly, if possible. With that I look forward to 
this morning's testimony from our distinguished panelists.
    Senator Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Mr. Chairman, my statement pretty much 
summarizes yours. I have nothing much to add to be in the 
record, except to underline the need for legislation so we have 
a solid statutory basis for managing the refuge. I know that 
Senator Graham has introduced legislation. Actually I think it 
was S. 823. He has worked very hard to try to get some 
consistency and some stability in the management of the Refuge 
System. The House, has come up with a pretty good bill. 
Anything can be improved upon, but it is incumbent upon us to 
get this thing passed this year.
    I appreciate your efforts, both and the Secretary.
    Senator Chafee. Senator Kempthorne, do you have anything to 
say?

 OPENING STATEMENT OF HON. DIRK KEMPTHORNE, U.S. SENATOR FROM 
                       THE STATE OF IDAHO

    Senator Kempthorne. Yes, I do, Mr. Chairman.
    I want to applaud you, Mr. Chairman, for moving quickly on 
the Wildlife Refuge bill. It is indeed a testament to the 
importance of this legislation that the committee is holding 
this hearing today, less than 1 week after the chairman's bill 
was introduced in the Senate. There has been a great deal of 
interest in this legislation and in moving it quickly.
    The original House bill was negotiated between Chairman Don 
Young and Secretary of the Interior, Bruce Babbitt. Their 
efforts to work together to develop a consensus bill show once 
again that we can improve our environmental laws and make them 
work better. Chairman Young and Secretary Babbitt deserve a 
great deal of credit for getting this difficult issue to the 
point where it is today.
    The bill that Senator Chafee has introduced, along with 
myself and Senator Graham is based largely on Chairman Young's 
work, although it does make a few changes. One of those changes 
was particularly important to my State of Idaho. When we 
reviewed the House bill, we discovered an internal ambiguity in 
the bill, which could have been taken advantage of by those who 
might want to eliminate many legitimate uses of Wildlife 
Refuges.
    My concern was that the bill's exclusive focus on so-called 
``wildlife-dependent'' activities might be interpreted down the 
road as a signal that Congress intended only for these kinds of 
activities to qualify as potentially compatible activities on 
Federal wildlife refuges, and that the many other uses of 
refuges that can now be authorized, if they are compatible with 
the purposes of a refuge, would be left out. That would be a 
significant problem.
    Under the law now, our national wildlife refuges support 
many uses, including wildlife-dependent uses, such as hunting 
and fishing, but also important nonwildlife-dependent uses like 
grazing, oil and gas production, electricity transmission, and 
even family picnics and weddings. Under the House bill any one 
of these activities arguably could have been eliminated on 
Federal refuges simply because they are not wildlife-dependent 
activities. In Idaho, for example, ranchers who were once 
promised that they would retain the right to graze their cattle 
on the Greys Lake Refuge, might have lost that right because an 
individual refuge manager, already hostile to grazing, 
interpreted the House language to preclude grazing as a 
compatible use. This is an important issue for my State because 
grazing occurs in four of the five Idaho refuges.
    So I have included language in our bill to ensure livestock 
grazing, and other legitimate activities on refuges, can 
continue to be considered compatible uses on a wildlife refuge. 
With that change I am pleased to be a cosponsor of this bill, 
and for the first time it will establish hunting and fishing as 
priority uses on wildlife refuges, and will ensure that other 
legitimate and compatible uses can continue in the future.
    Of particular interest and importance to me, to Idaho, and 
to other western States is the provision in the bill that 
provides ``Nothing in this Act shall create a reserved water 
right, expressed or implied, in the United States for any 
purpose.'' I strongly support this provision now, as I have in 
the past.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you, Senator.
    Senator Boxer.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Thank you very much, Mr. Chairman.
    I ask unanimous consent that my full statement be printed 
in the record, and I will summarize from it.
    Senator Chafee. It certainly will be. Thank you.
    [The prepared statement of Senator Boxer follows:]
  Prepared Statement of Senator Barbara Boxer, U.S. Senator from the 
                          State of California
    Mr. Chairman, today we will discuss management of the National 
Wildlife Refuge System. This is a topic of particular interest to me 
and to millions of Californians who recreate and take spiritual 
refreshment in the more than thirty refuges that are in my State.
    Established in 1906, the National Wildlife Refuge System has been 
the backbone of our efforts in protecting the quantity and quality of 
our nation's fish, wildlife and plant species. Our nation has 
rightfully seen fit to set aside 92 million acres of land and water in 
all 50 States and territories. Fully one-third of these lands are 
wetlands, surely one of the more threatened and critical ecosystems in 
our country. The diversity of these lands is absolutely astounding, 
ranging from the stark beauty of the Arctic National Wildlife Refuge in 
Alaska, to the verdant richness of the Cabo Roja National Wildlife 
Refuge in Puerto Rico.
    Equally diverse are the reasons why people visit the refuges. More 
than 24 million people come to observe and photograph the always 
fascinating and colorful plant, fish and wildlife. Another five million 
come to try their hand at landing that big one that will be the basis 
for umpteen fish stories for years to come. Generations of hunters have 
enjoyed the solitude and abundance of nature that refuges provide. All 
in all, more than 37 million people are drawn to our refuges annually.
    California is fortunate indeed in having 37 National Wildlife 
Refuges encompassing more than 400,000 acres. They are equally diverse 
in their physical nature and why people visit them.
    The Don Edwards San Francisco Bay National Wildlife Refuge is 
situated in the densely populated San Francisco Bay area, which is home 
to more than six million people. The refuge, with its mudflats, salt 
marshes, and rich estuarine lands, is a small remnant of a once vast 
``baylands'' that teemed with plant and wildlife. Today less than one-
quarter of the salt marshes that made up the bay remain, primarily in 
protected lands such as the refuge. The refuge provides a welcomed 
respite from the daily grind for more than 300,000 visitors per year. 
They come primarily to walk the trails, observe the wildlife, and to 
learn more about the magic of San Francisco Bay.
    Some 300 miles to the north straddling the Oregon-California State 
line is the Lower Klamath National Wildlife Refuge. The Lower Klamath 
Refuge was established by President Theodore Roosevelt in 1908, and was 
our nation's first waterfowl refuge. It is listed in the National 
Register of Historic Places as both a National Historic Landmark and a 
National Natural Landmark. The 47,600-acre refuge is a varied mix of 
shallow marshes, open water, grassy uplands, and croplands that are 
used by marsh birds and waterfowl. This wonderful place is visited by 
more than 200,000 people annually.
    Mr. Chairman, I cite these two refuges to demonstrate the rich 
variety and importance of National Wildlife Refuge to the people of my 
State of California. I am sure that each committee member can cite the 
importance of refuges to the citizens of their home States.
    Mr. Chairman, I want to thank you personally for introducing the 
National Wildlife Refuge System Improvement Act of 1997. Curiously, the 
Refuge System has never had a clearly defined mission. Your bill will 
correct this by clearly establishing the conservation mission of the 
System, while providing managers clear direction and procedures for 
making determinations regarding wildlife conservation and public uses 
of the System and individual refuges.
    Your bill will also require the Secretary of Interior to prepare a 
comprehensive conservation plan for each refuge. Developed with full 
public participation, these comprehensive plans will assist managers in 
clearly articulating the long-term purpose of each refuge, and how 
activities on the refuge can help realize that purpose.
    Mr. Chairman, the value of the National Wildlife Refuge System 
cannot be measured solely in acres of wetlands, numbers of waterfowl, 
variety of threatened and endangered species protected, or dollars to 
the local economy. Perhaps the more important value of the refuges is 
as a reminder of what America once looked like. A reminder of the 
diversity of the plants, wildlife, and fish that once blessed every 
corner and every acre of our wonderful country. A reminder of a time 
when the wonder of a wind-swept field of royally clad lupines or a 
lonely cry of a loon could be enjoyed on a daily basis.
    Or perhaps the ultimate purpose of our Refuge System is as a 
harbinger of what our country can once again be, with thoughtful 
leaders and the perseverance of all people who hold wild things dear 
and important. I hope that for the sake of future generations of 
Americans, this ultimate purpose will someday be realized.
    Thank you Mr. Chairman.

    Senator Boxer. The topic of the National Wildlife Refuge 
System is of particular interest to me, and to millions of 
Californians who recreate and take spiritual refreshment in the 
more than 30 refuges that are in my State. We are indeed very 
fortunate to have refuges encompassing more than 400,000 acres, 
Mr. Chairman. They are equally diverse in their physical nature 
and why people visit them. For example, the Don Edwards--San 
Francisco Bay National Wildlife Refuge is situated in a densely 
populated area of San Francisco Bay, which is home to 6 million 
people. The refuge, with its mud flats and salt marshes, is a 
small remnant of a once vast phalanx that teamed with plant and 
wildlife.
    Today, less than one quarter of the salt marshes that made 
up the bay remain, primarily in protected lands, such as the 
refuge. The refuge provides a welcome respite from the daily 
grind for more than 300,000 visitors per year. They come 
primarily to walk the trails, observe the wildlife, and learn 
more about the magic of San Francisco Bay, and some 300 miles 
to the northeast, straddling the Oregon-California State line 
is the Lower Klamath National Wildlife Refuge. The Lower 
Klamath was established by President Theodore Roosevelt in 1908 
and was our Nation's first waterfowl refuge.
    Mr. Chairman, I cite these two to demonstrate the rich 
variety and importance of national wildlife refuges to the 
people of my State. I'm sure that each committee member can 
cite the importance of refuges to the citizens of their home 
States.
    I want to thank you personally for introducing the National 
Wildlife Refuge System Improvement Act of 1997. Curiously the 
system has never had a clearly defined mission and your bill 
will correct this by clearly establishing the conservation 
mission of the system, while providing the managers clear 
direction and procedures for making determinations regarding 
wildlife conservation and public uses.
    Your bill will also require the Secretary of the Interior 
to prepare a comprehensive conservation plan for each refuge, 
develop a full public participation. These comprehensive plans 
will assist managers in clearly articulating the long range 
purposes of each Refuge and how activities on the refuge can 
help realize that purpose.
    Mr. Chairman, the value of the National Wildlife Refuge 
System cannot be measured solely in acres of wetlands, number 
of waterfowl, variety of threatened and endangered species, or 
dollars to the local economy, although all of those are very 
important. But perhaps the more important value of the refuge 
is as a reminder of what America once looked like, a reminder 
of the diversity of the plants, wildlife, and fish that once 
blessed every corner and every acre of our wonderful country, a 
reminder of a time when the wonder of a windswept field or a 
lonely cry of a loon could be enjoyed on a daily basis, and I 
think that this bill is extremely important.
    Mr. Chairman, there is one small issue that I don't believe 
has yet been addressed in the bill, which I hope we can work 
on, and that's a public health concern. I've heard from some 
public health advocates in my State, specifically they are 
fearful of an unintended consequence which is not being aware 
that we, at some of our reservoirs, could become breeding 
grounds for mosquitos and other pests, and that could endanger 
the people, and I'm hoping that we can work together with 
public health officials to address this issue. I don't think it 
is that difficult to do, but I do think we should have a 
section of the bill that recognizes this problem.
    With that I want to again thank you and do all I can to 
work with you to get this through the Senate.
    Senator Chafee. Thank you very much, Senator. Well said, 
and we will take a look at that problem you mentioned.
    Senator Boxer. Thank you.
    Senator Chafee. Senator Allard.

 OPENING STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR FROM THE 
                       STATE OF COLORADO

    Senator Allard. Thank you, Mr. Chairman.
    I would like to thank you for holding this hearing on this 
bill, and I am looking forward to testimony from Secretary 
Babbitt.
    Colorado has a wildlife refuge. We don't have the 30 that 
California has, but I think that----
    Senator Boxer. We have 37.
    Senator Allard. I stand corrected, 37. I appreciate that.
    But the thing that I would stress in my comments is that we 
need to be sure that we do give a lot of flexibility to local 
managers of this refuge that Senator Boxer pointed out. A lot 
of these refuges are in different situations, like the one in 
Colorado has been described as the largest metropolitan 
wildlife refuge, and it is actually a refuge that was built on 
a Superfund site, because obviously it's not an area that was 
ever going to be developed because of the contamination of the 
groundwater in that area, and the purpose, obviously, is 
conservation of wildlife. It was a very common sense use of 
that particular land in the Denver metro area. It provided open 
space, and it also provided a good educational opportunity 
because it was close enough to many schools in the area that 
students could be brought out and learn to appreciate the value 
of wildlife, to study wildlife, and it has been used for some 
studies, by the way, to evaluate the interaction of wildlife in 
a metropolitan area, particularly the wildlife that you would 
find on the eastern plains of Colorado.
    I think that local flexibility is very necessary for these 
administrators of these wildlife. Again the primary purpose, 
obviously, is to conserve wildlife. It is a nesting area for 
eagles. We do have burrowing owls, which are not too common. 
Many times people, particularly school children, have the first 
opportunity to see a burrowing owl in that particular area. 
When you have a confined area, I can visualize down the future 
there may be some problems of one particular species in that 
wildlife refuge taking over the refuge, because there are no 
natural predators there, and there needs to be some local 
management to take care of that problem if that should happen, 
and if you allow, for example, too many antelope or too many 
deer, it could contribute to overgrazing and some erosion of 
land and maybe have another impact on that species within that 
confined refuge.
    So I really hope that we can move ahead with this 
legislation. I support--I have a few concerns, but I think they 
will be easily resolved. Hopefully this piece of legislation 
will come back soon after the August break, if that's the 
desire of the chairman, and I look forward to working with the 
committee on this important piece of legislation.
    Senator Chafee. Thank you very much, Senator. I have a 
statement by Senator Inhofe to place in the record.
    [The prepared statement of Senator Inhofe follows:]
 Prepared Statement of Senator James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Mr. Chairman, thank you for holding this hearing today. I think S. 
1059 begins to solve many problems that may currently exist with usage 
on our nations refuges. This bill, for the most part, will benefit not 
only the refuge system as a whole, but the plants and wildlife they 
protect. There are, however, a couple of concerns that have been raised 
with regard to uses of refuge land that are currently acceptable, but 
under S. 1059, may compel Fish and Wildlife Service to change their 
view.
    First and foremost, S. 1059 is conspicuously silent on the issue of 
utility company usage of refuge land, especially rights-of-way for 
roads, electric power transmission and distribution lines, oil and gas 
pipelines, and telecommunications. Under current regulations, permits 
for these type activities are issued for long periods of time, 
sometimes up to 50 years. This long-term permit reflects the time and 
cost of such an endeavor, which can register between $500,000 and $1 
million per mile of transmission line. Additionally, permits of this 
length help to maintain a steady and constant stream of utilities 
needed by the people of this country. My concern is that the language 
in this bill could effectively limit that permit time to 10 years, 
subjecting responsible utility providers to unnecessary review, and 
possible re-routing, based on the lack of compelling science and data. 
Second, I am concerned about the emergency authority created within 
this bill. We are granting the Secretary widespread discretion in 
suspending activities within the refuge, but providing no opportunity 
for the affected party or parties to respond or appeal the decision. 
Additionally, the Secretary does not have to consider the potential 
cost of his action. I am concerned that this could be significant with 
regard to some activities, especially power lines.
    This bill moves us in the right direction. I look forward to 
addressing the concerns that I have raised with Secretary Babbitt. I 
feel comfortable that the members of this committee and the 
Administration can move to solidify the position of FWS as stated in a 
colloquy on the House floor between Congressmen Young and Saxton. Thank 
you, Mr. Chairman.

    Senator Chafee. Our first witness now is the Honorable 
Bruce Babbitt, Secretary of the Interior. I have had the 
pleasure of working with Secretary Babbitt on various matters 
over the last several years, and want to pay tribute to the 
excellent job you've done, Mr. Secretary, and when you're here 
testifying on behalf of this legislation, which you worked so 
hard on in the House, it reminds us all that the wildlife 
refuges, as been set up here, are very, very popular in our 
States, certainly in my State. The great brown sign with the 
white writing on it saying Fish and Wildlife Refuge is--they 
are all very popular. As a matter of fact, if anybody else 
wants to give up any acreage, we'll take everything they got.
    So, Mr. Secretary, you're on. Go to it. We welcome you 
here.

   STATEMENT OF HON. BRUCE BABBITT, SECRETARY OF THE INTERIOR

    Secretary Babbitt. Mr. Chairman, committee members, thank 
you very much.
    I have submitted written comments, and I will try to be 
very brief. In fact, Mr. Chairman, I have little to add to your 
opening statement with respect to the characteristics and the 
importance of this legislation. It is indeed remarkable, as 
several committee members have already noted, that the Fish and 
Wildlife Refuges, the oldest of the designated land management 
systems in the United States, have remained so long without an 
organic act, which we have long had for the National Park 
Service, and we have had since the 1970's for the Forest 
Service and the Bureau of Land Management.
    This legislation is, therefore, I think, an important 
achievement. At the outset, I would like to acknowledge the 
extraordinary effort, not only of the House leadership, that is 
Congressman Young, Congressman Miller, and Congressman Dingell, 
but also the direct participation of the Wildlife Legislative 
Fund, the State Game and Fish Managers through the 
International Association of Fish and Wildlife Agencies, the 
Audubon Society, and the Wildlife Management Institute, among 
others.
    The principal features that distinguish this legislation, 
in my judgment, are first an unequivocal declaration of the 
mission and purpose of the system and of the individual units. 
We have had a lot of litigation in recent years that is, I 
think, traceable to the lack of a clear, statutory purpose, 
which this legislation defines, straight on, as the 
conservation and restoration of fish, wildlife, and plants.
    The real innovation, in my judgment in a political sense, 
in this legislation was our ability to bring hunters, 
fisherman, sportsmen, and environmentalists together in a 
common affirmation of appropriate uses of the wildlife refuge 
system. I believe that is the glue that binds this legislation 
together. Of course, the mechanism for that is the definition 
of wildlife-dependent recreation, specifically affirming the 
role of hunting, fishing, photography, environmental education, 
and visitation as the preferred, primary public uses of the 
refuge system. That is the common ground from which, in my 
judgment, all the other provisions flow quite logically.
    They include, notably, the compatibility standard, which is 
established for all uses and, as Senator Kempthorne pointed out 
in his testimony with his changes, it is clear that the entire 
spectrum of uses are available subject to meeting the 
compatibility standard mandated in the legislation with a 
statutory procedure laid out for the determination of 
compatibility in a public process.
    Lastly, as Senator Boxer pointed out, the importance of 
refuge plans, of having a statutory procedure and deadlines, 
and a public process for laying out the plans for each refuge.
    The changes advocated, in fact, in this draft from Senator 
Kempthorne and Senator Graham are entirely acceptable to this 
Administration, and I appreciate their willingness to step 
forward and discuss those with us to assure that we were not 
going to have problems. Senator Graham's language goes to a 
very important and essential process of monitoring as part of a 
refuge administration.
    Lastly, there has been some discussion about the issue of 
utility rights of way, which normally are granted for long 
periods, 30-50 years, and questions have been raised as to 
whether or not the 10-year mandated compatibility review in any 
way affects the grant of those long-term easements and rights 
of way.
    It is our view that the bill pretty clearly indicates that 
you do not review the grant of the easements, all you review 
each 10 years is compliance with the terms of the original 
contract. There is a colloquy in the House legislation that, I 
think, makes that very clear. To the extent that that becomes 
an issue in your deliberations, I would ask only that in the 
spirit of this entire proceeding try to work out mutually 
acceptable language, and I will do my best to be available at 
any time for any of those discussions in hopes that as this 
bill reaches the goal line and we can continue this consensus-
based process.
    With that I would be happy to answer any questions or to 
leave you to your deliberations, as you choose.
    Senator Chafee. Well, I think what we'll do, Mr. Secretary, 
is we'll give each Senator 5 minutes to ask you some questions, 
and if some have longer than that, we can work that out.
    Now, as I understand it, one of the major criticisms of the 
current law is that there is no guidance given to the 
individual refuge managers to determine whether a secondary use 
is compatible with the purposes of the refuge. Now, as you 
establish a refuge for the manatee, or whatever is it, and then 
that is the primary purpose. But then what are the secondary 
uses that are compatible with that primary use, and the bill 
says that these determinations are to be based on ``The sound, 
professional judgment of the manager,'' which itself is defined 
as being consistent with the principles of sound fish and 
wildlife management. Do you think this gives more guidance than 
the current administrative standards? In other words, have we 
made some progress here for the individual refuge manager?
    Secretary Babbitt. Senator, I believe we have. The 
important definition is the definition in section 5 of 
Compatible Use, which makes it clear that any of the uses 
cannot materially, ``materially interfere with or detract from 
the fulfillment of the mission of the system or the purposes of 
the refuge.''
    Now, that was drafted as a legal standard. That is a very 
explicit, judicially enforceable standard. Against that general 
standard, we have decided in the discussions that it is very 
important to retain discretion in the refuge manager for many 
of the reasons Senator Allard has previously pointed out. There 
is no way of making these judgments in 520 refuges by a set of 
detailed prescriptions. So, I think the explicit standard, the 
generic standard, and the sound professional judgment standard 
ought to provide an adequate mix of those two objectives.
    Senator Chafee. Where do you think we have made a step 
forward in this bill?
    Secretary Babbitt. I think we have made a step forward in 
the following ways:
    First of all, after 100 years we have a definition of the 
purpose of the system. Interestingly enough, we have never had 
that. All of the previous statutes are devoid of an explicit, 
statutory definition of the purpose of the system.
    The second important thing is that for the first time, at 
least in modern history, we have brought sportsmen and 
environmentalists together in an explicit recognition of 
wildlife-dependent recreation which includes hunting, fishing, 
and environmental uses. I do not think it is any secret that 
among the State game managers and the international sportsmen 
there is a lot of uneasiness about a system, sort of a 
collection of statutes, which did not explicitly recognize 
hunting as a statutory purpose, although implicitly it has been 
recognized. Indeed the sportsmen are largely responsible for 
the financing of much of the modern refuge system.
    That compromise is glued together by an additional very 
important concept, wildlife-dependent recreation. These are not 
exclusive uses, but are preferred uses, and if there are 
conflicts among users, the wildlife-dependent users have a 
preference. So I believe that the explicit statutory definition 
and the hierarchy of uses that are given statutory recognition 
and tiered downward are really at the heart of this bill.
    Plus, I might add, the planning mandates, which have been 
the subject of a great deal of unnecessary litigation.
    Senator Chafee. Senator Baucus.
    Senator Baucus. Thank you, Mr. Chairman.
    Secretary, I would be curious as to your assessment of the 
health of the species and the refuges. Just, how are we doing, 
holding our own? Are they deteriorating, declining, coming 
back, generally? Are there some that are doing a lot better 
than others?
    Secretary Babbitt. Senator, there are lots of different 
ways of approaching that. I suppose from the standpoint of 
sportsmen, waterfowl would be the primary issue since so much 
of this refuge system is devoted to the maintenance of the 
flyways for waterfowl. We've had a spectacular comeback of 
waterfowl. We are going to have the best duck and goose season 
in the last 30 years this coming season. Much of that, I think, 
is due to the Administration and protection of the prairie 
potholes in the northern Great Plains, and good administration 
and a lot of good rainfall as well. So from that perspective, 
we are doing well.
    I would say that the principal concern within the service 
are the pressures of urban use on many of these refuges, and 
the fact that they are, by contrast with other land management 
agencies, seriously understaffed to handle public use. Now, let 
me say that is being addressed in the appropriation side as we 
speak, and I'm very grateful for that.
    Senator Baucus. There has been some discussion the last 
several years about the state of disrepair of some of our 
national parks; Yellowstone, for example, Glacier is 
deteriorating, a backlog of unmet repairs, maintenance needs, 
and so forth. Do the refuges face a similar situation?
    Secretary Babbitt. Oh sure. The answer is yes. I think that 
any visitor to a wildlife refuge will be impressed at the very 
primitive nature of the facilities on that refuge. If you go 
out to Blackwater, here, you can see the difference. The 
refuges in Montana, a lot of them are being administered out of 
double-wide trailers and out of kind of Jerry-built facilities 
that show a lot of ingenuity and very little money in their 
establishment.
    Senator Baucus. That's all a matter of appropriations?
    Secretary Babbitt. I think that's the basic issue. We're 
going to get a much better appropriation bill this year. 
Obviously it's not going to wipe out all that backlog in a 
short time period.
    Senator Baucus. What about the parks?
    Secretary Babbitt. I think you have stated accurately the 
condition of the parks. We are making a few small strides; the 
increase in visitor fees helps. It would be really helpful in 
this year's appropriation bill for the Senate to accede to the 
House language allowing us to retain all of the fee increases 
in the park system. It would make a substantial difference.
    We need to make some additional progress on concession 
reform. There is no silver bullet, but these all add up, I 
think.
    Senator Baucus. But one park raised a million dollars in 
fees voluntarily, is that right? You or someone in the service 
mentioned to me that one park raised quite a sum of money, the 
fees, recently.
    Secretary Babbitt. There is no question about that. Just 
take Grand Canyon, 5,000,000 visitors, say an average three to 
a car, visit a week. We are getting a lot more than $1 million 
for the Grand Canyon. I would say it is probably closer to $3, 
$4, $5 million. Of course, that's in a context of a budget of--
Grand Canyon--I think it is now up to $25 million a year in 
operating budget. The fee increases are going to be segregated 
for capital improvements and, in this case, a very exciting 
plan to put up a mass transit system.
    Senator Baucus. Thank you.
    Senator Chafee. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    Just have a couple of questions. On page 10 there in the 
bill, again we were referring to that section that you referred 
to, the administration of the system and the flexibility and 
whatnot the balance that you have. There is a paragraph there 
that talks about, as a secondary use at least, to assist in the 
maintenance of adequate water quantity and water quality, 
fulfill the mission of the system and the purposes of each 
refuge, and then--that is F and then G--it says, ``acquire, 
under State law, water rights that are needed for refuge 
purposes.''
    So I just want to make it clear for the record that there 
is an intention there to make the State a part of that effort 
in maintaining adequate water quantity and water quality, 
because that can be an issue in an area like the Rocky Mountain 
Arsenal where we have a lot of contamination with groundwater, 
and sometimes there are concerns at the local area, and just 
want to make sure we have the intent where they would be 
working with the States in that part of the provision.
    Secretary Babbitt. Yes, I think that is accurate.
    Senator Allard. OK. Then the other area I have in the bill 
is on page 21, subsection 2 there, where it says, ``Nothing in 
this Act shall diminish or affect the ability to join the 
United States in adjudication of rights to the use of water 
pursuant to the McCarran Act,'' and then it has a specific 
reference. Actually this is something we already have in 
statutory law now, and the question I have is why is it 
necessary to repeat it in this particular piece of legislation?
    Secretary Babbitt. Senator, I would be happy to delete it. 
But, I think you will find that most of the ``water buffalos'' 
who were circling around this legislation were eager to repeat 
it, and you will find the one characteristic of the water 
buffalo crowd is that they cannot repeat this language too many 
times.
    Senator Allard. OK. Thank you for your response on that.
    I do not have any other concerns in particular. I just had 
a few minor things that I wanted to bring up. I did not see 
them as real big issues. But wanted to ask you about those and 
I appreciate your responses. Thank you.
    Senator Chafee. Senator Graham.
    First I want to say Senator Graham has been very, very 
active in this as we know on this committee, your legislation 
passed in the Senate one time, not too long ago, did it not, 
Senator?
    Senator Graham. Almost.
    Senator Chafee. Almost. All right. Well, we score for close 
ones. But in any event, this is an area where Senator Graham 
has been very, very knowledgeable and helpful and interested. 
So we are delighted that you are here this morning, Senator.

  OPENING STATEMENT OF HON. BOB GRAHAM, U.S. SENATOR FROM THE 
                        STATE OF FLORIDA

    Senator Graham. Mr. Chairman, I appreciate those kind 
remarks and your typical high standard of generosity.
    This issue of the future of the National Wildlife Refuge 
System has been one of great public and personal concern for 
many years. We have all read and personally experienced and 
seen on television instances in which our National Refuge 
System was being degraded by a number a internal and external 
forces.
    A major source of those forces comes under the heading of 
incompatible uses. In my own State of Florida, a number of 
refuges which were established for the protection of specific 
species have been degraded by activities that made the refuge 
incompatible for that species. I would like therefore to ask 
the Secretary some questions about compatibility.
    One of the sources of incompatibility has been the use 
refuges for military purposes. In previous legislation there 
has been some specific language relative to the utilization for 
Department of Defence activities, including requirements of a 
Presidential Finding before they could be used for that 
purpose. This legislation does not have a provision similar to 
that. I wonder if the Secretary could discuss how he would 
anticipate, or what is the current state of use by the 
Department of Defence of wildlife refuges and what resolution 
of the conflicts that have existed in the past would he 
anticipate in the future?
    Secretary Babbitt. Senator, the legislation provides that 
existing uses by Federal agencies, which have been accepted and 
authorized and permitted under Federal law, will continue. Now, 
we have had very productive discussions with the military about 
these issues. There has been some conflict in the past, 
Gullwater Gunnery Range is one that comes to mind, over which 
there is a wildlife refuge overlay.
    I am satisfied that we have these worked out. I must say 
that the Department of Defense has been very cooperative in 
working out these issues, and, I think, rather than sort of 
digging up all of those old controversies, it is better just to 
accept this language, and we are comfortable with it.
    Senator Graham. Also in the area of compatibility, there is 
a tendency, when a use in or adjacent to a refuge has gone on 
for some time, for it to become seen, particularly by people in 
the local area, as an accepted activity. It takes considerable 
diplomatic skill and finesse if the goal is to moderate or 
terminate an activity that is now determined to be 
incompatible.
    How do you see this legislation as affecting the ability of 
the managers of the system, to make a determination as to 
whether a use, including uses that have been in place for a 
considerable number of years, is compatible with the primary 
purposes of the refuge, and then where the decision is that it 
is not compatible, to begin the process of backing it out?
    Secretary Babbitt. Senator, there is no question it is a 
difficult business and it comes from all quarters. A public 
recreational user, jet skis come to mind as one where we have 
serious issues particularly on the waterfowl refuges, and 
others have a tendency to think that what has happened in the 
past should be confirmed for eternity. The fact is that the 
compatibility standard here, I think, contains a clear 
direction, and a judicially enforceable direction, to the 
refuge manager that he has got to make a finding that will not 
materially interfere with the mission and purposes of the 
refuge.
    Senator Kempthorne discussed at some length with us the 
issue of the Greys Wildlife Refuge in Idaho where we had a 
dispute over grazing, which has been resolved quite nicely, 
because clearly seasonal grazing at the appropriate levels is 
entirely compatible with the purpose of that refuge and 
arguably, actually enhances the bird nesting conditions 
provided you meet the seasonal timeframes for the grazing. We 
have got that one worked out, and I am not saying it is going 
to be easy, but we do have a standard and I think it is 
reasonable and I think it does not preclude by its terms any 
kinds of uses. It simply sets the standard for how that use 
should be carried out, and, obviously, some uses may be ruled 
out completely.
    Senator Graham. Thank you, Mr. Chairman.
    [The prepared statement of Senator Graham follows:]
 Prepared Statement of Senator Bob Graham, U.S. Senator from the State 
                               of Florida
    Mr. Chairman, I'm pleased to have the opportunity to discuss the 
National Wildlife Refuge System Improvement Act of 1997. It is a long-
overdue ``organic act'' for our magnificent Refuge System. In 1991 and 
again in 1993, as chairman of the Subcommittee on Fish and Wildlife, I 
introduced the National Wildlife Refuge System Management and Policy 
Act--legislation which was very similar to that which is before us 
today.
    My aims then were straightforward. First, to clarify that the 
purpose of the National Wildlife Refuge System is to conserve our 
nation's diversity of fish, wildlife, and plants and their habitats. 
Second, to improve the process used to determine which public uses 
shall be allowed on the refuges. Third, to require the development of 
comprehensive conservation plans for each of the refuges and ensure 
that the public has ample opportunity to participate in the planning 
process as it does in planning for our national parks and national 
forests. Fourth, to lay out clear affirmative duties for the Secretary 
of the Interior to protect the integrity and plan for the appropriate 
expansion of the Refuge System.
    My bill had the strong support of conservation groups like The 
Wilderness Society, the National Audubon Society, Defenders of 
Wildlife, and the Sierra Club. Thanks to Senators Chafee, Kempthorne, 
and Baucus, my bill also enjoyed the support of the International 
Association of Fish and Wildlife Agencies along with a variety of 
sportsmen's groups. The Environment and Public Works Committee reported 
that bill in the 103rd Congress but unfortunately we were not able to 
bring the bill to the Senate floor because a number of procedural holds 
were placed on the bill.
    In the last Congress, the House introduced and passed a radically 
different bill that would have harmed our Refuge System. President 
Clinton indicated that he would veto the House bill but fortunately, it 
was not acted upon by the Senate.
    The bill before us today is not identical to the bill I introduced 
in prior years. It is not exactly how I would have drafted it, but I am 
very pleased that it addresses the four major areas that I outlined 
above: a mission statement for the system, a formal process to assess 
the compatibility of refuge activities, a planning requirement, and 
duties for the Interior Secretary.
    Of course, even with passage of this bill, the Refuge System will 
only meet its potential to conserve the nation's fish and wildlife if 
the Congress appropriates the funds necessary for its proper 
management. I am pleased that the House has approved a healthy increase 
for this purpose in its FY 1998 Interior Appropriations bill and will 
work to ensure that the Senate does as well. Senator Kempthorne and I 
and 18 of our colleagues have written to the Appropriations Committee 
to urge such funding.
              theodore roosevelt's endangered species act
    Ninety-four years ago, President Theodore Roosevelt established the 
first national wildlife refuge at Pelican Island in my state of 
Florida. This bold move protected the last remaining nesting colony of 
brown pelicans on the Atlantic seaboard. But as critical as this action 
was for the pelicans, it had much broader importance for the nation's 
wildlife because it began our only system of national lands dedicated 
to wildlife conservation.
    Before leaving office, Roosevelt went on to establish more than 50 
such sanctuaries. Herons, egrets, pelican and other shorebirds, along 
with all manner of water fowl found sanctuary on Roosevelt's refuges. 
Barge mammals including bison, elk and antelope were also protected. In 
this sense, the Refuge was Roosevelt's Endangered Species Act.
    Refuges continue to be created to meet the most pressing wildlife 
conservation challenges of the day. Refuges have been established for 
endangered fish, birds, mammals, reptiles, frogs, bats, and 
butterflies. In my state we even have the new bake Wales Ridge Refuge 
established for endangered plants. And while we have many refuges to 
protect endangered species, we know that many other species would be 
headed for the endangered species list were it not for the protections 
afforded by the National Wildlife Refuge System.
    Today the Refuge System includes more than 500 refuges and 92 
million acres which makes it larger than the National Parks System. Yet 
in the lower 48-states, the Refuge System amounts to less than 4 
percent of the federal public lands and less than 1 percent of the 
total land area of those states.
    In Florida we have twenty-five refuges encompassing more than a 
million acres of land and water. These include refuges to protect our 
manatees, Florida panthers, sea turtles, Key deer, crocodiles and those 
endangered plants.
              public support and use of the refuge system
    Our Refuge System has been strongly supported by bird watchers, 
hunters, and anglers throughout its history--even though there was very 
little recreation permitted for much of the system's history. For 
example, hunting was a rarity on refuges until 1949, but hunters and 
sportsmen's organizations were strong supporters of the system even in 
those early years because they realized that without protected 
habitats, there could be no wildlife.
    Today, the Refuge System provides ample opportunities for fish and 
wildlife related recreation including wildlife observation, nature 
photography, and hunting and fishing, as well as environmental 
education. But these public uses are clearly secondary to the long-
standing primary purposes of the Refuge System to conserve fish and 
wildlife and habitats. S. 1059 continues this clear distinction between 
the purpose of the Refuge System to conserve fish and wildlife, and the 
priority uses of the system which are those related to learning about 
or enjoying fish and wildlife.
                         problems in the system
    Unfortunately, public use has not always been carried out in a 
manner that is consistent with the well-being of our refuges and their 
wildlife. A 1989 study by the General Accounting Office found that 
secondary activities considered by refuge managers to be harmful to 
wildlife resources were occurring on nearly 60 percent on our refuges. 
Power boating, mining, military air exercises, off-road vehicles, and 
air boating were cited as the most frequent harmful uses. Oil and gas 
drilling, timbering, grazing, farming, commercial fishing, and even 
wildlife related recreation such as hunting, trapping, and wildlife 
observation in some instances were also found to harm wildlife or 
habitat. A 1991 study by the U.S. Fish and Wildlife Service confirmed 
the GAO's findings. The Service found that harmful activities were 
present at 63 percent of the refuges.
    At one time, for example, the Key West National Wildlife Refuge 
harbored the only known breeding colony of frigatebirds in the United 
States. The Great White Heron National Wildlife Refuge, also in the 
Florida Keys, hosted numerous colonies of wading birds. But increased 
activity within the refuges by jet skiers, power boaters, water skiers, 
campers, and others was the most likely reason that the frigatebirds 
abandoned the refuge rookery and the chief culprit behind the fact that 
other birds have showed signs of declining breeding success.
    Refuge managers, despite their best efforts, have often been 
susceptible to outside pressure to allow these damaging activities 
because the laws governing the Refuge System are not completely clear. 
Furthermore, decisions about which activities were compatible with 
wildlife conservation purposes have often been made without adequate 
public input or written records. The problem had been compounded in 
past years by lack of periodic reevaluations of uses.
            action to restore integrity to the refuge system
    Fortunately, the Clinton Administration has taken a number of steps 
to resolve many of the problems in the National Wildlife Refuge System. 
I like to believe that the interest and oversight that we provided in a 
bipartisan fashion in the 102nd and 103rd Congresses set the stage for 
these improvements.
    A number of harmful economic, recreational, and even military 
activities have been eliminated or appropriately reduced. In Florida, 
for example, action has been taken by the Fish and Wildlife Service to 
reduce the number of people allowed to scuba dive along side manatees 
in the Crystal River refuge that was established to protect the 
manatee. Likewise, the Service has taken action to reduce public use at 
the Egmont Key National Wildlife Refuge. And a back-country plan has 
been implemented in the Florida Keys to greatly reduce conflicts 
between people and wildlife.
    President Clinton has also issued an Executive Order on the 
management of the Refuge System that specifies that the mission of the 
refuges is to preserve a national network of lands and waters to 
conserve our wildlife diversity. The Executive Order also appropriately 
ensures that recreational pursuits that are related to fish and 
wildlife will take priority over other activities not so related.
    Now, as in the past, I am gratified to be part of the process of 
updating the laws that govern our magnificent National Wildlife Refuge 
System. It is my sincerest hope that this new law will improve the 
Refuge System for the benefit of our nation's fish and wildlife and for 
generations of Americans to come.

    Senator Chafee. Thank you, Senator.
    One quick question, Mr. Secretary. This planning seems to 
make sense. I know that they give you plenty of time. I think 
it's 15 years. I do not know who would do the plan. I suppose 
that each--let's see, the Secretary shall prepare a 
comprehensive conservation plan for each refuge. So that's a 
big task, a big undertaking.
    Secretary Babbitt. Senator, it is. But I read Secretary 
clearly, in the terms of this legislation, to mean refuge 
manager. I think that's quite clear.
    Senator Chafee. So then they'll come up with plans, then 
come before your Department, and then that'll sort of set up 
guidelines for how each one is going to be run for the ensuing 
years. Is that correct?
    Secretary Babbitt. That is correct. We reckon that with our 
existing budget projections, we should be able to get through 
the full cycle in probably about half that time, probably about 
8 years, and I also would add that we have had a long round of 
compatibility work done already under court order that some of 
the members may be familiar with.
    Senator Chafee. I have no further questions.
    Senator Baucus.
    Senator Baucus. Neither do I. Thank you.
    Senator Chafee. Senator Allard.
    Senator Allard. No, Sir.
    Senator Chafee. Senator Graham.
    Senator Graham. No.
    Senator Chafee. Well, thank you again, Mr. Secretary. We 
appreciate your obvious time and are grateful for you coming up 
today.
    Secretary Babbitt. Chairman, committee members, thank you.
    Senator Chafee. All right, our next panel will be Mr. Gary 
Taylor, legislative director for the International Association 
of Fish and Wildlife Agencies; Mr. James Mosher, conservation 
director of the Izaak Walton League; and Mr. James Waltman, 
director, Refuges and Wildlife Program of The Wilderness 
Society.
    So we have the environmentalists up before us now, and Mr. 
Taylor, if you want to proceed, please.

      STATEMENT OF GARY J. TAYLOR, LEGISLATIVE DIRECTOR, 
   INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES, 
                        WASHINGTON, DC.

    Mr. Taylor. Thank you, Mr. Chairman, and members of the 
committee, for the opportunity to share with you today the 
perspectives of the International Association of Fish and 
Wildlife Agencies on S. 1059. I am Gary Taylor, legislative 
director of the association, and I bring to you today our 
enthusiastic support for this bill. As you are aware, Mr. 
Chairman, all 50 State fish and wildlife agencies are members 
of our association.
    Quite simply, we believe the bill provides a needed and 
sound underpinning in fish and wildlife conservation for the 
administration of the National Wildlife Refuge System. It is a 
bill that is good for fish and wildlife, it is good for the 
National Wildlife Refuge System, and we believe it's good for 
our citizens who will appropriately use and enjoy our national 
wildlife refuges for compatible activities such as hunting, 
fishing, nature observation and photography, and conservation 
education. We applaud you and Senator Baucus for having a 
hearing on this landmark legislation, and urge you to 
expeditiously report the bill to the Senate floor, protect it 
from further amendments, and send it back to the House for 
concurrence, and on to the President for signature.
    Secretary Babbitt has shared with you the process which has 
resulted in the consensus language in the House companion bill, 
and which the House sent to you, as you observed, with an 
overwhelming vote of 407-1.
    We would again like to recognize and thank Secretary 
Babbitt, Congressman Young, Congressman Dingell, Congressman 
Saxton, and Congressman Miller for their leadership role in 
shaping this consensus. I also would like to recognize that the 
foundation for the bill, as you pointed out, Mr. Chairman, was 
laid in the 103d Congress in a bill from Senator Graham, 
Senator Baucus, and yourself, and we certainly appreciate your 
pioneering efforts in this endeavor.
    Let me quickly now summarize why the International 
Association strongly supports this bill. First, the bill 
establishes an overarching mission of the National Wildlife 
Refuge System to conserve fish and wildlife and their habitats 
for the use of present and future citizens of the United 
States.
    It also gives the Secretary affirmative responsibilities to 
manage the system to meet this mission and to protect the 
ecological integrity of the units within the system. We believe 
such an overarching objective is necessary to give direction 
for management of the system in fish and wildlife conservation. 
Refuges are not junior grade national parks, nor are they 
glorified national recreation areas. They can and should 
represent the best examples of the science and practice of fish 
and wildlife management, where wildlife- dependent recreational 
uses should be given priority public use considerations so that 
our citizens can enjoy and learn about the fish and wildlife 
found on these public lands.
    Second, the bill gives the Secretary the authority to 
permit compatible uses of refuges only after and when the 
Director of the Fish and Wildlife Service acting through the 
refuge manager, exercising professional judgment consistent 
with principles of sound fish and wildlife management, and 
available science and resources, finds that the use will not 
materially interfere with or detract from the fulfillment of 
the mission of the system of the purposes of the individual 
refuge.
    This is the same standard for compatible use that the Fish 
and Wildlife Service policy has applied to this determination 
for many years. In giving the Secretary the authority to permit 
compatible uses, the bill adopts in statute, as a policy of the 
United States, the provisions of the President's 1996 Executive 
order which affirms the legitimacy of compatible wildlife-
dependent recreation as a priority general public use of the 
system.
    The bill further directs the Secretary to facilitate that 
use, subject to necessary and appropriate restrictions. The 
bill does not change the standing of other uses under existing 
law. The association strongly endorses this perspective because 
wildlife-dependent recreational use is derived from healthy and 
robust fish and wildlife populations. These uses are generally 
minimally intrusive, and they provide opportunities for our 
citizens--birders, anglers, hunters, educators, and students to 
enjoy and learn about fish and wildlife conservation on lands 
dedicated for this purpose.
    As you are also aware, Mr. Chairman, sportsmen and women of 
this Nation have contributed significantly to the support of 
the National Wildlife Refuge System through their purchase and 
use of Federal waterfowl stamps, their support for the North 
American Wetlands Conservation Act program, and other Federal-
private share programs for acquisition of national wildlife 
refuges. Giving wildlife-dependent recreational uses priority 
general use consideration recognizes the contribution of the 
Nation's sportsmen and women.
    Third, the bill recognizes that national wildlife refuges 
are important components of, and contribute to, the larger 
ecosystems in which they are found, and, as such, should be 
managed with appropriate attention to the surrounding land. The 
bill further recognizes the need for, and directs, cooperation 
with the State fish and wildlife agencies in meeting objectives 
for fish and wildlife conservation on the refuge, and in 
coordinating the role of the refuge in meeting statewide 
objectives for fish and wildlife.
    Finally, we fully support individual refuge conservation 
planning and involvement of the public as provided for. We 
appreciate the fact that planning and compatibility processes 
are not so burdensome that the professionally trained refuge 
manager is not perpetually engaged in process instead of 
accomplishing on the ground objectives for fish and wildlife 
conservation and their habitats and providing appropriate 
opportunities for compatible wildlife-dependent recreational 
uses. This is where the managers, we feel, should be spending 
their time, not on onerous process or in litigation.
    Thank you again for the opportunity to appear before you 
today, Mr. Chairman, and I would be happy to address any 
questions you might have.
    Senator Chafee. Thank you very much, Mr. Taylor. I think 
the points you made were good ones, and we'll have the chance 
to ask you questions when we finish with the panel.
    Mr. Mosher, we welcome you.

STATEMENT OF JAMES A. MOSHER, CONSERVATION DIRECTOR, THE IZAAK 
           WALTON LEAGUE OF AMERICA, GAITHERSBURG, MD

    Mr. Mosher. Thank you, Mr. Chairman and members of the 
committee.
    I'm Jim Mosher, conservation director of the Izaak Walton 
League of America, and am pleased to have the opportunity to 
talk with you about the National Wildlife Refuge System 
Improvement Act of 1997.
    The League is celebrating its 75th anniversary this year, 
having originated just a few years after the birth of the 
refuge system. Our mission is to conserve, maintain, protect, 
and restore the soil, forest, water, and other natural 
resources of the United States and other lands, and to promote 
means and opportunities for the education of the public with 
respect to such resources and their enjoyment and wholesome 
use.
    Our support of the National Wildlife Refuge System is more 
than seven decades old. Following the league's first national 
convention in 1923, we became the principal driving force in 
establishing the Upper Mississippi Wildlife and Fish Refuge, 
which set aside 300,000 acres of bottomland and riparian 
habitat in the upper Mississippi River basin. Subsequently we 
played a substantial role in establishing or expanding the 
National Elk Refuge in Wyoming, Bear River Migratory Bird 
Refuge in Utah--that incidentally, I believe, was the first 
refuge to specifically permit recreational use of the area, 
setting aside some 60 percent as sanctuary and allowing public 
hunting on the remaining 40 percent; Horicon National Wildlife 
Refuge in Wisconsin; Protection Island National Wildlife Refuge 
in Washington, Edwin B. Forsythe National Wildlife Refuge in 
New Jersey, Hamden Slough in Minnesota, Patoka in Indiana, and 
the Great Dismal Swamp National Wildlife Refuge in Virginia.
    We are now, incidentally, working to support establishment 
of the Grand Kankakee Marsh National Wildlife Refuge which lies 
on the Illinois-Indiana border. This refuge would restore a 
part of what was originally a half million acres of wetland.
    It's unlikely that over the past 75 years any other 
national conservation group has devoted a higher percentage of 
its energy and resources to the refuge system. I believe this 
record is clear evidence of the importance of the refuge system 
to our members as well as their commitment to our Nation's 
systems of public lands.
    I'm pleased to speak on behalf of our 50,000 members in 
support of the National Wildlife Refuge System Improvement Act. 
We believe S. 1059, and its companion, H.R. 1420, provide for 
reasonable and sound management of the National Wildlife Refuge 
System, and balance multiple interests in a manner that first 
protects the integrity of these valuable natural areas.
    The League believes refuges should be available to 
carefully controlled hunting, fishing, and other compatible 
recreational uses to the extent that these uses do not intrude 
upon environmental values or primary management purposes. This 
long established league policy is fully consistent with the 
President's Executive Order 12996, and I believe the National 
Wildlife Refuge System Improvement Act will effectively 
implement the full intent of that Order.
    We believe it is important and long overdue that the refuge 
system be provided a legislatively established mission, and 
that this mission recognize the overarching importance of the 
protection of wildlife and other natural resources. There must 
also be provisions for a process by which compatibility of uses 
can be determined, with an opportunity for citizen input. It is 
important that a planning process be established that will 
identify the fiscal, staff, and program needs of the refuge 
system. This bill accomplishes these goals, and does so in a 
manner that provides for an appropriate balance between 
protection and use. This bill also culminates several years of 
debate and previously failed attempts to craft legislation that 
could garner consensus among the very many divergent interests.
    We urge the committee to move expeditiously to bring this 
bill to the full Senate for consideration. It is a good bill. 
The time is right. Conservation of all our natural resources, 
and especially our public lands, may be the single most 
important issue by which future generations measure our 
success.
    Lastly, I take this opportunity to thank Secretary Babbitt 
and his staff, members and staff of the House of 
Representatives, and the environmental and conservation groups 
that participated in the difficult negotiations that produced 
this bill. The nearly unanimous passage by the House is a 
measure of that success.
    I thank the chairman and members of this committee again 
for the opportunity to share the League's assessment of the 
bill, and our views, and continued support of the National 
Wildlife Refuge System.
    Thank you.
    Senator Chafee. Thank you, Mr. Mosher.
    Mr. Waltman, The Wilderness Society.

  STATEMENT OF JAMES WALTMAN, DIRECTOR, REFUGES AND WILDLIFE 
        PROGRAM, THE WILDERNESS SOCIETY, WASHINGTON, DC.

    Mr. Waltman. Thank you, Mr. Chairman, for this opportunity 
to testify before this committee on behalf of The Wilderness 
Society and our more than a quarter million members.
    I have to say it's a pleasure to testify in support of 
legislation. I think it's been a while since I have done that 
personally, perhaps the last time----
    Senator Chafee. I've noticed that.
    Mr. Waltman. I think I appeared before this committee----
    Senator Chafee. Nice to have your support in this.
    Mr. Waltman [continuing]. Was 3 years ago on behalf of 
Audubon, The Wilderness Society, Defenders of Wildlife, and 
Sierra Club, and a bunch of others in support of Mr. Graham's 
legislation. It's very nice to come back and support 
legislation again.
    As my written testimony explains in some detail, The 
Wilderness Society has worked as long and as hard as anyone to 
pass the kind of comprehensive, organic legislation that is now 
before you. The lack of a clear, comprehensive statute for the 
system has been at least partly to blame for a myriad of 
problems, and as Senator Graham indicated, there had been 
report after report over the years that identified these 
problems in some detail, there have been TV shows, and the 
like.
    Fortunately, the Clinton administration has been chipping 
away at those. The problems are not as egregious as they had 
been, but we still need to pass this bill, and finish the job, 
and make sure we can prevent some of those from creeping up in 
the future.
    One of the things that has been a particular problem for 
the refuge system is its lack of a comprehensive law has often 
left it subject to the bullying of other agencies and all 
manner of other interests. In particular, there has been no 
clear affirmative duties for the Secretary of the Interior to 
protect and provide for the refuge system. This Act, S. 1059, 
would change that.
    Our goals for a refuge organic Act have been pretty 
straightforward. First, an unambiguous statement that the 
purpose of the refuge system is to conserve fish and wildlife. 
Second, a formal process to review compatibility of refuge uses 
that provides opportunities for public review and comment. 
Third, again, affirmative duties for the Secretary to protect 
and provide for these places. Fourth, a requirement that all 
national wildlife refuges prepare a comprehensive plan and be 
managed pursuant to that plan. Fifth, a marked improvement in 
the quality of the science that underpins key refuge management 
decisions.
    Mr. Chairman, S. 1059 is not the exact bill that we would 
have drafted. It is the obvious product of compromise, but the 
bottom line for The Wilderness Society is that we support this 
bill because it contains each and every one of those major five 
elements that we've thought important for so long.
    We are particularly pleased that this bill includes a 
provision to improve monitoring of the status and trends of 
fish and wildlife and plants on the refuges, a provision that 
was lacking from the House bill.
    We also support the straightforward principle that refuges 
must first be for the conservation of fish and wildlife. 
Second, where appropriate and compatible, and where funds are 
available, they should foster wildlife observation, hunting, 
fishing, and environmental education. These are activities 
through which the public can understand and appreciate and 
learn more about fish and wildlife.
    Finally, those activities that are unrelated to fish and 
wildlife must receive the lowest priority. We think this bill 
clearly sets up that framework and it's more than appropriate.
    Our testimony includes some technical amendments that we 
think would improve the bill, but having said that, the 
important thing is to move expeditiously toward passage. We 
urge you to think very closely before accepting any special 
provisions dealing with specific refuges or specific uses. I 
understand there has been a fair amount of back and forth in 
the last week over the question of utility right of ways. I'd 
be happy to answer some questions on that. We're very concerned 
as you might imagine about some of what we've heard.
    I have to say that we've been somewhat frustrated perhaps, 
that the debate has centered so much on the single issue of 
hunting. Hunting is an appropriate use of the refuge system. I 
think we've kind of established that with absolute certainty in 
the Congress of late, but there are a lot of other issues that 
could benefit from review by this committee once we get this 
bill passed. How is the refuge system doing to conserve 
endangered species? How is the water quality and quantity on 
the refuges? What are we doing to preserve wilderness 
characteristics in refuges? What is the impact of overflights 
on refuges?
    This bill exempts overflights from compatibility. But 
exempting them from compatibility is not going to make that 
problem go away, and at some point we are going to have to 
figure out how to address that issue.
    Mr. Chairman, I just want to finish by thanking you, 
Senator Graham, Senator Baucus, and Senator Kempthorne for your 
continued interest in the refuge system. It's demonstrated 
obviously by this hearing today, and by your efforts to 
increase appropriations for the operations and maintenance of 
the refuge system. We are very hopeful that this bill----
    Senator Chafee. Senator Allard. Don't forget Senator 
Allard----
    Mr. Waltman. My peripheral vision failed me there. Senator 
Allard, thank you as well. But we hope this bill----
    Senator Chafee. His interest in this has been very helpful 
as we----
    Mr. Waltman. That's right. We're going to--we've got a new 
century of challenges facing the refuge system in a few years. 
We're hopeful this bill will help the system meet some of those 
challenges that face it.
    Thank you very much.
    Senator Chafee. Well, thank you very much.
    I think it is important that we, as each of you said, that 
we all remember that these refuges were not set up as areas 
where people could water ski or jet ski. They were set up for 
wildlife conservation, preservation, and to preserve the 
habitat as well. That's the principal reason these were set up.
    Now if others come along with what can be called compatible 
uses, all right. That's what is provided here. But there's no 
right for a demand. They do not have a demand, a right to water 
ski. They can water ski if it's compatible. Sometimes that's 
forgotten. This area is set aside, and there it is, and why 
can't we, the jet skiers, have our use of it just like the 
hunters do, or whoever it might be. That's why we have got to 
bear in mind the whole idea of why these places were set up in 
the beginning.
    Now, I'd like each of you to briefly respond to this 
question. Some concern has been expressed recently regarding 
the possible consequences of this law on existing rights of 
way, such as electric utility lines, pipelines, and refuges. 
Specifically this law requires that secondary uses be subject 
to periodic re-evaluation and be eliminated or modified if not 
compatible. Long standing rights of way maybe threatened in the 
future.
    Now, what do you say to that, Mr. Taylor?
    Mr. Taylor. Mr. Chairman, I concur with Secretary Babbitt's 
interpretation of what the bill does and how it would be 
applied to a review of the compliance with the terms and 
conditions of the permit, and not the fundamental easement 
authority to begin with. I think the House colloquy and the 
report language also affirm that, that was the intent of the 
language, and I believe that if there was further discussion on 
that, that characterized the House colloquy and proposed 
language here, that we would not object to that.
    Senator Chafee. As I understand it, what it means is that 
you can't question whether there be a utility line through 
there that is there, that's got an easement, but you can deal 
with the so-called ``terms and conditions.'' Is that the way 
you understand it?
    Mr. Taylor. That's my understanding, Mr. Chairman. Yes.
    Senator Chafee. What do you say, Dr. Mosher?
    Mr. Mosher. Well, the League's primary concern with any 
user activity associated with the refuge always remains and 
that is that the integrity of the ecosystem must receive first 
priority. I would clearly defer to the Secretary's evaluation 
as to whether or not this piece of legislation adequately 
serves him in that regard.
    Senator Chafee. Mr. Waltman.
    Mr. Waltman. I think the important thing to do is think 
about why we are passing this law. We are passing this law to 
clarify that the purpose of the refuge system is to conserve 
fish and wildlife. You know, we understand the interest in the 
utility industry for some certainty, but our concern, I guess, 
is if you've got an activity such as the right of way that may 
have been found to be compatible 10 or 20 or 30 years ago. If 
the conditions change, say you have a particular species that 
is in more trouble today than it was 30 years ago, the Fish and 
Wildlife Service needs to be able to adjust the original terms 
and conditions, if necessary, to insure that the activity 
remains compatible.
    I think it's highly unlikely that you would go in and 
remove a power line or a pipeline. That's not what folks have 
in mind here. But the Fish and Wildlife Service should be able 
to go back, if necessary, and make some adjustments to the uses 
that were authorized within those rights of way.
    Senator Chafee. Well, that's the so-called ``terms and 
conditions.''
    Mr. Waltman. That's right.
    Senator Chafee. Senator Allard.
    Senator Allard. Mr. Chairman, I do not have any questions.
    Senator Chafee. Thank you. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I want to come back to this issue of compatibility, because 
I think it is at the heart of the concerns that led to this and 
previous legislative efforts to strengthen the wildlife refuge 
system.
    In this legislation there is the concept of wildlife-
dependent recreation. It's referred to on page 8 in the 
discussion of the policy that will be utilized in the 
administration of the system. It is used again on page 15 in 
discussing the regulations that the Secretary shall issue 
relative to the compatibility process.
    But in the definition of compatible use, which is on page 
4, it states the term ``compatible use'' means a wildlife-
dependent recreational use or any other use of a refuge that in 
the sound professional judgment of the director will not 
materially interfere with or detract from the fulfillment of 
the mission of the system or the purpose of the refuge.
     I'm concerned about the phrase, any other use of the 
refuge. It seems as if there's a disconnect here. Throughout 
the body of the bill there's a lot of focus on this concept of 
wildlife-dependent recreational use, but in the definition of a 
compatible use that seems to be shattered by saying any other 
use, i.e. not wildlife-dependent is also potentially 
permissible. That disconnect concerns me.
    I'd be interested in the panel's discussion of that and how 
they would see in the administration of this Act, that 
expansion, to include in the definition of compatible use, any 
other use would be managed.
    Mr. Waltman. I'll start out with that. I think that there 
are two principles at play in the bill here, one being that 
only those activities that are compatible with the purpose of 
the refuge and the mission of the refuge system can be allowed. 
That can include wildlife-dependent activities, and it could 
include nonwildlife-dependent activities.
    But the second principle in this bill is that there is a 
priority within the uses, such that when an individual refuge 
is setting out and establishing a management plan that decides 
what's going to be allowed on that refuge, the first category 
of activities that will be considered will be those that are 
dependent on the presence of wildlife: the wildlife 
observation, fishing, hunting, environmental education. Those 
activities must be compatible to be permitted, but they are to 
take priority over other activities that may not be related.
    Having said that, if the refuge can sustain it, if there's 
adequate funding to monitor and oversee, other activities can 
be permitted on a refuge. Obviously, from the perspective of 
The Wilderness Society, we would hope that the large majority 
of activities in the refuge system are the so-called wildlife-
dependent activities.
    Senator Graham. I'd like to get the comment of the other 
panelists, but I would like to direct your attention for 
possible subsequent comment to page 15, lines 3-11, which talk 
about what will happen after there has been a compatibility 
determination for wildlife-dependent recreational uses. It 
seems as if we are in fact putting the wildlife-dependent uses 
into a subsidiary category to all other uses, because they 
become subject to this secondary review, and I can't find any 
place where other than wildlife-dependent uses, which have once 
been found to be compatible, are subjected to a similar 
subsequent review.
    I ask that as a question, and would be interested in your 
comment.
    Mr. Taylor. Senator, I believe the preceding clause to what 
you referred addresses all other uses, starting on the bottom 
of page 14. The difference, I believe, is in the timeline 
called for, a mandated review of activities. Those provisions 
suggest that either for wildlife-dependent uses or other uses, 
if conditions change significantly that a review can be made at 
any time, but certainly not less than for wildlife-dependent 
uses every 15 years, and for other than wildlife-dependent 
uses, the bill calls for a 10-year minimum review.
    To your first comment, Senator, I believe that the bill 
never intended, nor contemplated that only wildlife-dependent 
uses could be found to be compatible, and that as Mr. Waltman 
pointed out, the intent of the bill was to give a priority to 
wildlife-dependent uses, so that if everything else were equal, 
including a compatibility determination, but both could not be 
accommodated, that the wildlife-dependent uses would be given 
priority. But I believe the addition of the language in the 
definition of compatible use does not detract either from the 
requirement for a compatibility determination of those uses or 
the prioritization that the bill seeks to give to wildlife-
dependent uses. So I think it simply clarifies that there is a 
universe of more than wildlife-dependent uses that the 
Secretary can find compatible as long they go through the 
appropriate process and judgment against the standard.
    Senator Graham. Thank you, Mr. Chairman.
    Senator Chafee. Well, I take it in conclusion that 
referring to the language that Senator Graham was referring to 
and--you've got the copies of the Act in front of you? If you 
turn to page 4, where Senator Graham was discussing line 6 and 
actually line 7, the term compatible use means a wildlife-
dependent recreational use--OK. No one will argue with that--or 
any other use of a refuge that in the sound professional 
judgment will not materially interfere with or detract from the 
fulfillment of the mission.
    So you think even though it does not have to be--well, for 
example, grazing. In this case the--how would this work? Let's 
say that they do not want grazing, but they can't show that it 
will materially interfere with or detract from the fulfillment 
of the mission, and clearly it's not a wildlife-dependent 
recreational use, but it is any other use that--and, in 
fairness, it does not interfere. So you go ahead with the 
grazing. Is that right?
    Suppose that the rancher sues and says I want to be able to 
graze there?
    Mr. Waltman. My understanding of this bill is that there's 
nothing in here that requires the Fish and Wildlife Service to 
permit a use, even if that use may be compatible. For example, 
there are unfortunately a number of refuges today that have few 
or no staff whatsoever. Obviously a refuge with no staff is 
going to have difficulty overseeing public uses. So whether 
theoretically a birdwatching activity or a grazing activity may 
be put together that could be compatible for that refuge, if 
the Fish and Wildlife Service does not want to allow it for 
other reasons, it does not have to. That's been the 
longstanding policy and legal standard that has undergirded the 
refuge system at least since the 1966 Act.
    Senator Chafee. The rest of you agree?
    Mr. Mosher. I would concur with what Mr. Waltman has said, 
and I, reflecting on this, am reminded of Senator Kempthorne's 
comments and concerns, and I think this addresses those 
concerns as well, and particularly with respect to the grazing 
issue. Again, from the League's perspective, our primary 
concern is the protection of the resource, wildlife, and the 
habitat that supports that, and the functioning of the 
ecosystem.
    That, to our satisfaction, is dealt with in the 
compatibility standards.
    Mr. Taylor. Just one additional observation, Mr. Chairman. 
I think the definition of the term ``sound professional 
judgment'' gives the manager the discretion in exercising that 
to address circumstances as Mr. Waltman may have suggested 
where you have a refuge where there is no staff, that while a 
use may be found to be compatible, it's not consistent with 
good administration to allow it if it requires some oversight 
and there's no staff available there.
    Senator Chafee. OK, gentlemen. I think there are no more 
questions. We want to thank you very much for coming.
    Panel. Thank you, Mr. Chairman. Thank you, committee 
members. Thank you.
    Senator Chafee. That concludes the hearing.
    [Whereupon, at 10:50 a.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
  Prepared Statement of Hon. Bruce Babbitt, Secretary of the Interior
    Mr. Chairman, I appreciate the opportunity to appear before your 
Committee to express the Administration's support for S. 1059, the 
National Wildlife Refuge System Improvement Act of 1997. This Committee 
has played an important role in the development of this legislation. 
About 4 years ago, it was this Committee which recognized the need for 
organic legislation and began the effort which has led us to the 
threshold of consensus represented in S. 1059.
    But this effort has not always been so amicable. During the last 
Congress, the House of Representatives passed legislation over the 
strong objections of the Administration. This Congress began 
essentially in the same way. In March, Chairman Young called me before 
the House Resources Committee where we had a fairly unproductive 
hearing--not unlike many others--where we exchanged our respective, 
seemingly irreconcilable, positions.
    But afterward, outside of the hearing room, Chairman Young and I 
had a brief conversation and he expressed his desire to talk and try to 
work out a compromise. I decided to take him up on his offer, and we 
then invited Congressmen Miller, Saxton and Dingell to each commit 
their respective staff representatives to a process of focused 
discussion. We also invited the Wildlife Legislative Fund; the Audubon 
Society; the International Association of Fish and Wildlife Agencies; 
and the Wildlife Management Institute.
    We met once a week, for about 5 weeks. The environmental community 
wanted an unequivocal statutory declaration that wildlife conservation 
is the mission of the Refuge System. The hunting and fishing community 
and the state wildlife managers wanted statutory recognition that their 
activities constitute an appropriate use of the National Wildlife 
Refuge System, recognizing that the decision to allow hunting and 
fishing on any refuge must be predicated by an individual analysis and 
determination that the specific hunting or fishing program is 
compatible with the conservation mission of the system and purposes of 
the refuge. The result is a bill that will strengthen and improve our 
National Wildlife Refuge System as it heads into the 21st century.
    The House of Representatives approved that bill by a vote of 407-1. 
With a couple of significant variations, S. 1059 is that same bill and 
I would like to take a few minutes to explain why it is so important 
for this Committee and this Senate to consider and pass this bill as 
soon as possible.
    The National Wildlife Refuge System is the world's greatest system 
of lands dedicated to the conservation of fish and wildlife. It is a 
system founded in faith; a belief that, in a country as bountiful and 
diverse as ours, there ought to be special places that are set aside 
exclusively for the conservation of fish and wildlife resources. These 
special places are National Wildlife Refuges, where appropriately 
enough, the conservation needs of wildlife are paramount.
    S. 1059 keeps this faith, by recognizing that the central, 
overarching purpose of the National Wildlife Refuge System is, and 
should remain, the conservation of fish, wildlife and their habitat. 
The bill maintains the crucial distinction between wildlife 
conservation as the dominant refuge goal and compatible wildlife-
dependent recreation as a priority public use. Wildlife conservation is 
our purpose. The opportunity for compatible recreational uses are the 
important benefits that flow from this purpose. Appropriately then, the 
bill recognizes that the use of our refuge lands and waters, to the 
extent that such use can be allowed, shall be reserved first to those 
recreational activities which depend and thrive on abundant populations 
of fish and wildlife. The obligation of the refuge manager is thus 
clear: wildlife conservation is foremost. Where recreational activity 
is appropriate, let compatible wildlife-dependent recreation, including 
hunting and fishing, come first.
    This does not mean that other compatible non-wildlife dependent 
activities cannot also be allowed within a wildlife refuge. Rather, it 
simply acknowledges that those compatible activities which are truly 
dependent upon the presence of wildlife should, logically, be accorded 
a priority within a wildlife refuge over other proposed activities 
which are not tied to the presence of wildlife. Senator Kempthorne has 
authored a provision in S. 1059 which clarifies that both wildlife-
dependent as well as other uses of refuges--like grazing for instance--
can be ``compatible uses'', as long as they do not materially interfere 
with or detract from the fulfillment of the mission of the System or 
the purpose of the refuge. This proposed change is acceptable to the 
Administration.
    The bill maintains the strict policy that all refuge uses must be 
``compatible''. It sets up a sensible, consistent and public process 
for the Service's managers to follow in making compatibility 
determinations, and it adopts the Service's longstanding regulatory 
standard for compatibility.
    S. 1059 appropriately defines the specific categories of wildlife-
dependent recreation which are to be considered as the ``priority 
public uses'' for the refuge system: hunting, fishing, wildlife 
observation and photography, and environmental education and 
interpretation. Where compatible, refuge managers are to provide 
increased opportunities for these uses and enhance the attention they 
receive in refuge management and planning.
    Finally, the bill maintains the historic Refuge System policy that 
refuges are ``closed until open''. That is, in order to ensure that 
wildlife needs come first, existing refuge lands and waters are closed 
to public uses until they are specifically opened for such uses. 
However, a new process is established for identifying compatible 
wildlife-dependent recreational activities prior to the acquisition of 
new refuge areas, thereby avoiding the temporary closure of on-going 
compatible recreational activities.
    Senator Graham has inserted another notable provision, requiring 
the Secretary to ``monitor the status and trends of fish, wildlife, and 
plants in each refuge.'' Improving our biological capability at, and 
understanding of each refuge is vital to accomplishing our conservation 
mission. The Fish and Wildlife Service and the Biological Resources 
Division of the U.S. Geological Survey will be working hand-in-glove to 
fulfill this requirement and again, you have the Administration's full 
support.
    Another issue which arose during House consideration of the bill 
concerns utility rights-of-way and other refuge uses which may be 
authorized for periods of many years. In the case of utility rights-of-
way, authorizations are usually granted for periods of 30 to 50 years. 
Since the bill requires review of each non-wildlife dependent refuge 
use, at least every 10 years, the utility industry is concerned that 
these reviews not be interpreted to require a new permit process at 
each 10 year interval. This is not the case and during House 
consideration the Administration supported a colloquy to clarify that, 
in the case of such long-term authorizations, these reviews would 
examine compliance with permit terms and conditions and would not 
require a new permitting process. I understanding that some Senate 
Members may be interested in legislative language to codify this view. 
Provided language can be drafted that accurately reflects the House 
colloquy, I believe it would have the Administration's support.
    Attached to my written statement is a summary of the key provisions 
of S. 1059. Mr. Chairman, let me say simply that your bill contains all 
of the key ingredients that will help improve our refuge system and we 
should get this legislation enacted as soon as possible.
    Mr. Chairman, we have today an opportunity to enact historic 
legislation that embodies the principle that whether they cast a line, 
pitch a decoy, or click a shutter, the 30 million Americans who 
annually visit and enjoy our refuges have one common and enduring 
interest--the conservation of fish, wildlife and their habitat. 
Ultimately, that is what the National Wildlife Refuge System is about 
and that is what this bill will promote and ensure.
    I look forward to working with the Committee to enact this 
legislation as soon as possible. I am happy to answer any questions 
that you may have.
                                 ______
                                 
                               Attachment
    key provisions of s. 1059, the national wildlife refuge system 
                            improvement act
    The National Wildlife Refuge System Improvement Act represents a 
consensus among diverse constituencies with interests in the management 
and use of the Refuge System. Negotiations leading to the development 
of the nearly-identical bill passed by the House involved Interior 
Department Secretary Bruce Babbitt; the legislation's sponsors, 
including Congressmen Don Young, John Dingell, Jim Saxton, and George 
Miller; and representatives of environmental and sportsmen's groups.
    This legislation strengthens protections for individual refuges and 
for the National Wildlife Refuge System. Its main components improve on 
the National Wildlife Refuge System Administration Act of 1966 by 
amending it to include a unifying mission for the Refuge System and a 
new process for determining compatible wildlife-dependent public uses 
of refuges.
    Key provisions of S. 1059 mirror those found in President Clinton's 
Executive Order 12996, Management and General Public Use of the 
National Wildlife Refuge System, signed in March 1996. Provisions 
coinciding with the Executive Order are the mission statement, priority 
public uses, and a requirement that the environmental health of the 
Refuge System be maintained.
Mission
    <bullet> The legislation establishes a strong and singular 
conservation mission for the National Wildlife Refuge System:

        ``To administer a national network of lands and waters for the 
        conservation, management, and where appropriate, restoration of 
        the fish, wildlife and plant resources and their habitats 
        within the United States for the benefit of present and future 
        generations of Americans.''

    <bullet> The legislation requires the Secretary of the Interior to 
ensure that the mission of the National Wildlife Refuge System and 
purposes of the individual refuges are carried out. It also requires 
the Secretary maintain the biological integrity, diversity, and 
environmental health of the Refuge System.
Priority Public Uses
    <bullet> The legislation establishes certain wildlife-dependent 
recreational uses as priority public uses where compatible with the 
above mission and the purpose of individual refuges. These uses are 
hunting, fishing, wildlife observation and photography, and 
environmental education and interpretation.
    <bullet> The legislation establishes these wildlife-dependent 
recreational uses as ``legitimate and appropriate'' public uses of the 
Refuge System. It states that these uses should be facilitated where 
compatible but does not mandate them.
    <bullet> The legislation retains refuge manager's authority to use 
their professional judgment to determine compatible uses and whether or 
not they will be permitted. It establishes for the first time a 
statutory process for determining what constitutes a ``compatible 
use,'' and retains the regulatory definition of ``compatible use'' 
currently used by the U.S. Fish and Wildlife Service, the Interior 
Department agency responsible for managing the National Wildlife Refuge 
System.
    <bullet> The legislation authorizes the Secretary of the Interior 
to temporarily suspend the compatibility standard to cope with an 
emergency on a refuge threatening public health and safety or that of 
any wildlife population.
Public Involvement
    <bullet> The legislation requires public involvement in any 
decisions to allow new uses and renew existing uses.
    <bullet> The legislation requires public involvement in the 
development of comprehensive refuge management plans and requires that 
such plans be prepared for every refuge.
Other provisions
    <bullet> The legislation's new compatibility process exempts uses 
by other federal agencies with primary jurisdiction over the land on 
which a refuge is located and use of airspace over a refuge (which is 
regulated by the Federal Aviation Administration). The legislation also 
provides for continuation of existing uses of refuge lands by other 
agencies under applicable laws and agreements.
    <bullet> The legislation maintains the status quo with respect to 
all aspects of water rights.
    <bullet> The legislation maintains the status quo with respect to 
state management of resident wildlife outside of refuge lands.
                                 ______
                                 
           Questions from Senator Inhofe to Secretary Babbitt
                               section 1
    I have some concerns about rights-of-way within refuges across the 
country, so I am glad to see that your testimony is supportive of the 
Colloquy between Congressmen Young and Saxton. I do, however, still 
harbor some skepticism about the future interpretation of this 
legislation.

    Question 1. Would it be acceptable to the Administration to exempt 
utility rights-of-way from the provisions of S. 1059?
    Answer. The Administration would not support exempting utility 
rights-of-way from the compatibility provisions of S. 1059. We are not 
aware of any valid reasons for doing so. Requests for rights-of-way on 
refuges are considered under section 4(d) of the existing National 
Wildlife Refuge System Administration Act (16 US.C. 668dd(d)(1)(B), 
which is not changed by S. 1059. This point needs to be emphasized--the 
current statutory provisions and criteria for granting rights-of-way 
through refuges are not changed by S. 1059 or its companion House bill, 
H.R. 1420.
    S. 1059 does require that each non-wildlife-dependent use be re-
evaluated for compatibility not less frequently than every ten years. 
The Chafee amendment specifies that for long-term uses, such as 
pipeline rights-of-way, the review will cover compliance by the permit 
holder with the terms and conditions of the permit, not the existence 
of the right-of-way. This provision merely requires on a specified, 
periodic basis something that under current law is done on an ad hoc 
basis.

    Question 2. As part of the compatibility review process, do you 
anticipate that the question of whether or not pipelines should be 
allowed in refuges will be an issue?
    Answer. I do not anticipate that question being an issue. The 
review process to which you refer deals with existing authorized uses 
and will ensure that their compatibility is maintained It will not 
address the broader question of allowing rights-of-way generally.

    Question 3. Could the result of one of these reviews be a decision 
not to allow pipelines in refuges?
    Answer. No, as noted in the answer to Question 2, the reviews would 
not be dealing with the broader question of authorization of rights-of-
way generally.

    Question 4. It concerns me that the compatibility review process 
could become a mechanism that activists could use to simply stop 
development, even if there is not adverse impact on the refuge. Often 
there may be no practical alternative route available to the pipeline. 
Are there safeguards here to make sure that the outcome of the review 
process is decided on the merits and not simply on politics?
    Answer. Yes, there are. The review process will be governed by 
strict procedures and standards that are required by S. 1059 to be 
adopted as regulations. These regulations will be adopted only after 
compliance with the Administrative Procedure Act. It would be very 
difficult to make non-merit-based decisions under this framework.
                               section 2
    S. 1059 will give the Secretary new authority to ``temporarily 
suspend * * * any activity in a refuge * * * if the Secretary 
determines it is necessary to protect the health and safety of the 
public or any fish or wildlife population.'' I am concerned that this 
new authority will give the affected parties little opportunity to 
respond or appeal the decision.

    Question 1. What assurances could you give me that abuse of this 
power will not take place?
    Answer. The Secretary would only use the emergency powers clause if 
an event or set of circumstances demanded immediate action. An example 
might be temporarily closing access to certain public access roads or 
trails due to impending flooding which threatened public safety. 
Another example would be a waterfowl disease outbreak on a refuge. 
Waterfowl diseases amplify quickly and can threaten large numbers of 
birds. In a case such as this the Secretary would need to take swift 
action to stem the spread of the disease to the larger population.
    The emergency powers clause is not intended to be used to resolve 
longer term management issues. These would be dealt with through the 
planning process and/or compatibility determination process, both of 
which would require public involvement under S. 1059.

    Question 2. Would the Administration consider legislation that 
would allow an appeals process?
    Answer. No, an appeals process would render this section 
ineffective. This clause would only be invoked when an emergency 
required immediate but temporary action to protect the health and 
safety of the public or any fish or wildlife population. An appeals 
process would eliminate the Secretary's discretion in reacting to such 
an emergency. We believe that the requirement to make a specific 
finding of necessity to protect health and safety precludes abuse.
                               section 3
    Answers 1, 2 and 3. My comments on the Diane Rehm show were not 
directed at the work of Dr. Christy or Dr. Lindzen, and I have no 
reason to suspect that the results of their work are influenced by the 
source of their funding. Both scientists raise important questions over 
specific aspects of the science of climate modeling and prediction. 
This sort of debate is an extremely important and healthy aspect of the 
international scientific process, and it is precisely this type of 
honest back-and-forth discussion that ultimately results in scientific 
consensus.
    However, it is also clear to me that there are those who wish to 
cloud the debate, not by engaging in scientific argument, but by 
changing the subject entirely. They realize that they cannot argue with 
the well-accepted scientific recognition that atmospheric change of the 
magnitude that is now occurring must have significant effects on 
climate and weather, and ultimately on humans as well as plants and 
animals. Instead, they point to the legitimate scientific debate over 
whether particular weather events like storms or floods represent 
unequivocal evidence of the beginnings of climate change, or over 
particular elements of the climate modeling debate, and assert that 
there is no scientific consensus over the larger issue. This is simply 
not true. Continued support for activities that are intended to cloud 
the issue will not assist the American public in making sound choices 
about how to respond to this urgent threat.
    In this regard, I must commend the actions of those leaders in 
American industry who have stepped forward to acknowledge the problem 
and the need to act. Foremost among these is John Browne, Chief 
Executive of British Petroleum, who acknowledged the scientific 
consensus and stated that ``it would be unwise to ignore the mounting 
concern.'' It is precisely this type of leadership that is required if 
we are to face the challenge of climate change responsibly.
                                 ______
                                 
           Questions from Senator Boxer to Secretary Babbitt
    Question 1. One of the more spectacular and robust refuges is the 
Arctic National Wildlife Refuge (ANWR) in Alaska. How will this bill 
affect exploration for oil in ANWR?
    Answer. S. 1059 will not result in any changes in Service policy 
with respect to provisions for oil and gas development and exploration 
in the Arctic National Wildlife Refuge. Development and exploration 
will continue to be prohibited by the provisions of the Alaska National 
Interest Lands Conservation Act (ANILCA).

    Question 2. Other federal agencies have extensive experience at 
developing management plans for their units. Development of these plans 
have been controversial, time consuming, and costly. Will the 
comprehensive refuge plan process be as contentious? What are you going 
to do to ensure that the experiences of other agencies will not be 
repeated?
    Answer. Unlike other agencies that have multiple use mandates for 
their lands, S. 1059 provides an explicit primary mission for the 
National Wildlife Refuge System, establishes priorities for use of 
refuge lands, and reemphasizes current standards and requirements for 
decisions on allowing such uses. The fact that S. 1059 provides 
statutory directives for the very issues which often lead to conflicts 
during multiple-use planning should help us avoid such during our 
planning process.
    We have already done comprehensive conservation plans for all 
refuges in Alaska, and at a number of refuges elsewhere, often those 
with existing conflicts. It has been our experience that while the 
planning process itself can be contentious, the final plans generally 
resolve, not exacerbate, the controversies. It is our expectation that 
the more explicit standards in S. 1059 would result in an even more 
satisfactory planning process than has occurred in the past.

    Question 3. How much are the refuge plans going to cost? How long 
will the refuge plans take to complete?
    Answer. S. 1059 requires that the development of conservation plans 
for all refuges be completed within 15 years of enactment. We estimate 
that the cost to prepare 250 comprehensive conservation plans for 511 
refuges during this time period will be approximately $2.5 to $3 
million annually.
                                 ______
                                 
      Prepared Statement of Gary J. Taylor, Legislative Director, 
        International Association of Fish and Wildlife Agencies
    Thank you, Mr. Chairman, for the opportunity to share with you the 
perspectives of the International Association of Fish and Wildlife 
Agencies (IAFWA) on S. 1059. I am Gary Taylor, Legislative Director of 
the Association, and I bring to you today the enthusiastic and 
wholehearted support of the 50 State fish and wildlife agencies for S. 
1059. Quite simply, we believe this bill provides a needed and sound 
underpinning in fish and wildlife conservation for the administration 
of the National Wildlife Refuge (NWR) System. It is a bill that is good 
for fish and wildlife, good for the NWR System, and good for our 
citizens who appropriately use and enjoy our National Wildlife Refuges 
for compatible activities such as hunting, fishing, nature observation 
and photography, and conservation education. We applaud you and Senator 
Baucus for having a hearing on this landmark legislation and urge you 
to expeditiously report the bill to the Senate floor, assiduously 
protect it from other amendments and send it back to the House for 
concurrence and on to the President for signature.
    The Association, founded in 1902, is a quasi-governmental 
organization of public agencies charged with the protection and 
management of North America's fish and wildlife resources. The 
Association's governmental members include the fish and wildlife 
agencies of the states, provinces, and federal governments of the U.S., 
Canada, and Mexico. All 50 states are members. The Association has been 
a key organization in promoting sound resource management and 
strengthening federal, state, and private cooperation in protecting and 
managing fish and wildlife and their habitats in the public interest.
    Secretary Babbitt has shared with you the process which resulted in 
the consensus language in the House companion bill, H.R. 1420, and 
which the House sent to you with an overwhelming vote of 407 to 1. We 
would like to again recognize and thank Secretary Babbitt and 
Congressmen Young, Dingell, Saxton and Miller for their leadership role 
in shaping this consensus. Secretary Babbitt's personal involvement in 
shepherding this bill is reflected in its success and reflects his 
personal commitment to ensuring the integrity of our National Wildlife 
Refuges for fish and wildlife conservation, a commitment our State fish 
and wildlife agencies also share. I would also like to recognize that 
the foundation for this bill was laid in the 103rd Congress in a bill 
from Senators Graham, Baucus and Chafee and we appreciate your 
pioneering efforts in this endeavor.
    Let me now quickly summarize why the 50 State fish and wildlife 
agencies strongly support S. 1059 and H.R. 1420.
    First, the bill establishes an overarching mission of the NWR 
System to conserve fish and wildlife and their habitats for the use and 
enjoyment of present and future citizens of the United States. It also 
gives the Secretary affirmative responsibilities to manage the System 
to meet this mission and protect the ecological integrity of the units 
within the System. We believe such an overarching objective in statute 
is necessary to give and ground direction for management of the many 
disparate units of the System in fish and wildlife conservation. NWRs 
aren't junior grade national parks nor glorified national recreation 
areas--they can and should represent the best examples of the science 
and practice of fish and wildlife management, where wildlife dependent 
recreational uses should be given priority public use considerations so 
our citizens can enjoy and learn about the bountiful fish and wildlife 
on these public lands.
    Second, this bill give the Secretary the authority to permit 
compatible uses of NWRs only after and when the Director of the Fish 
and Wildlife Service (FWS) (through the Refuge Manager), exercising 
professional judgement consistent with principles of sound fish and 
wildlife management and available science and resources, finds that the 
use will not materially interfere with or detract from the fulfillment 
of the mission of the System or purposes of the individual refuge. This 
is the same standard for compatible use that the FWS policy has applied 
to this determination for years. The bill further goes on to require 
the Secretary to establish a process in regulation for compatibility 
determinations, including providing opportunity for public involvement.
    In giving the Secretary the authority to permit compatible uses, 
the bill adopts in statute as a policy of the United States the 
provisions of the President's 1996 Executive Order which affirms the 
legitimacy of compatible wildlife dependent recreation as a priority 
general public use of the System. S. 1059 further directs the Secretary 
to facilitate that use, subject to necessary and appropriate 
restrictions. The bill does not change the standing of other uses under 
existing law and policy of the USFWS. Further, as you are aware, Mr. 
Chairman, the bill does not prohibit other uses, as long as they meet 
the compatibility standard, and in most cases compatible wildlife 
dependent recreational uses and other compatible uses can be 
accommodated, but if they are both equally compatible but can't be 
accommodated, the bill gives a priority to wildlife dependent 
recreational uses. The Association strongly and wholeheartedly endorses 
this perspective because wildlife dependent recreational uses derive 
from healthy and robust fish and wildlife populations, they are 
generally minimally intrusive, and provide opportunities for our 
citizens--birders, anglers, hunters, educators and students--to enjoy 
and learn about fish and wildlife conservation on lands dedicated to 
this purpose. As you are also aware, Mr. Chairman, sportsmen and women 
of this Nation have contributed significantly to the support of the NWR 
System through their purchase and use of federal waterfowl stamp funds, 
their support for the North American Wetland Conservation Act program 
(which as you know is funded in part from interest on Pittman-Robertson 
funds), and other federal-private cost share programs for acquisition 
of NWRs. This provision giving wildlife dependent recreational uses 
priority general public use consideration recognizes their 
contribution.
    Third, S. 1059 recognizes that NWRs are important components of and 
contribute to the larger ecosystems in which they are found and as such 
should be managed with appropriate attention to the surrounding lands. 
The bill recognizes that State fish and wildlife agencies are the 
presumptive front line managers of fish and wildlife within their 
borders and have the statutory stewardship responsibility to ensure the 
vitality of fish and wildlife resources for their citizens. This bill 
further recognizes the need for, and directs cooperation with State 
fish and wildlife agencies, in meeting objectives for fish and wildlife 
conservation on the refuge, and in coordinating the role of the refuge 
in meeting statewide objectives for fish and wildlife. Most State fish 
and wildlife agencies have developed statewide comprehensive fish and 
wildlife resource and habitat conservation plans which can be helpful 
to the USFWS in meeting their refuge objectives. We also appreciate the 
Federal Advisory Committee Act exemption for the Secretary in 
coordinating conservation efforts with State agencies.
    Finally, we fully support individual refuge conservation planning 
and involvement of the public, as provided for in the bill. We also 
appreciate the Act that the planning and compatibility processes are 
not so burdensome that the professionally trained refuge manager is not 
perpetually engaged in process, instead of accomplishing on the ground 
objectives for fish and wildlife conservation and their habitats, and 
providing appropriate opportunities for compatible wildlife dependent 
recreational uses. This is where the NWR managers should spend their 
time, not in onerous process, or in litigation. We believe that the 
bill strikes the necessary balance for planning and public involvement 
but without being burdensome or constraining the exercise and 
application of sound professional fish and wildlife science and 
management by the refuge manager.
    In conclusion, Mr. Chairman, the 50 State fish and wildlife 
agencies enthusiastically support S. 1059 and H.R. 1420, and again 
would like to recognize the efforts of Congressmen Young, Dingell, 
Saxton, Miller, Secretary Babbitt, Senators Chafee, Graham, Kempthorne, 
and Baucus for bringing us to this point. We urge expeditious Senate 
passage without further amendment and are hopeful for quick House 
concurrence and a Presidential signing ceremony this summer.
    Thank you for the opportunity to share the Association's 
perspectives and I would be happy to address any questions you might 
have.
                                 ______
                                 
 Prepared Statement of James A. Mosher, Ph.D., Conservation Director, 
                     Izaak Walton League of America
    Mr. Chairman and Members of the Committee: I am Jim Mosher, 
conservation director of the Izaak Walton League of America, and I am 
pleased to have this opportunity to talk with you about the National 
Wildlife Refuge System Improvement Act of 1997.
    The League is celebrating its 75th anniversary this year, having 
originated just a few years after the birth of the refuge system. Our 
mission is to conserve, maintain, protect and restore the soil, forest, 
water and other natural resources of the United States and other lands 
and to promote means and opportunities for the education of the public 
with respect to such resources and their enjoyment and wholesome use.
    Our support of the National Wildlife Refuge System is more than 
seven decades old. Following the League's first national convention in 
1923, we became the principal driving in establishing the Upper 
Mississippi Wildlife and Fish Refuge which set aside 300,000 acres of 
bottomland and riparian habitat in the Upper Mississippi River basin. 
Subsequently, we played a substantial role in establishing and/or 
expanding the National Elk Refuge in Jackson Hole, Wyoming, Bear River 
Migratory Bird Refuge in Utah that I believe was the first refuge to 
specifically permit human recreational use of the area, setting aside 
60% as sanctuary and allowing public hunting on the remaining 40%, the 
Horicon National Wildlife Refuge in Wisconsin, Protection Island 
National Wildlife Refuge in Washington, Edwin B. Forsythe National 
Wildlife Refuge in New Jersey, Hamden Slough National Wildlife Refuge 
in Minnesota, Patoka National Wildlife Refuge in Indiana, and Great 
Dismal Swamp National Wildlife Refuge in Virginia. We are now working 
to support the newest refuge the Grand Kankakee Marsh Wildlife Refuge, 
which lies on the Illinois and Indiana border and would restore a part 
of what originally was a 500,000 acre wetland. It is unlikely that over 
the past 75 years any other national conservation group has devoted a 
higher percentage of its energy and resources to the refuge system.
    I am pleased to speak on behalf of our 50,000 members in support of 
the National Wildlife Refuge System Improvement Act of 1997. We believe 
this bill provides for reasonable and sound management of the National 
Wildlife Refuge System and balances multiple interests in a manner that 
protects the integrity of these valuable natural areas. The League 
believes refuges should be available to carefully controlled hunting, 
fishing and other compatible recreational uses to the extent these uses 
do not intrude upon environmental values or primary management 
purposes. This long established League policy is fully consistent with 
the President's March 1996 Executive Order 12996, and I believe the 
National Wildlife Refuge System Improvement Act of 1997 will implement 
the full intent of that order.
    We believe it is important and long overdue that the refuge system 
be provided a legislatively established mission statement and that this 
mission statement recognize the overarching importance of the 
protection of wildlife and other natural resources. There also must be 
provisions for a process by which compatibility of uses can be 
determined with an opportunity for citizen input. It is important that 
a planning process be established that will identify the fiscal, staff 
and program needs of the Refuge System. This bill accomplishes these 
goals and does so in a manner that provides for an appropriate balance 
between protection and use.
    This bill is the culmination of several years of debate and 
previously failed attempts to craft legislation that could garner 
consensus among many divergent interests. We urge the committee to move 
expeditiously to bring this bill to the full Senate for consideration. 
It is a good bill, and the time is right. Conservation of all our 
natural resources and especially our public lands may be the single 
most important issue by which future generations measure our success.
    Lastly, I take this opportunity to thank Secretary Babbitt and his 
staff, members and staff of the House of Representatives and the 
environmental and conservation groups that participated in the 
difficult negotiations that produced this bill. Its nearly unanimous 
passage by the House is a measure of their success.
    I thank the chairman and members of this committee again for the 
opportunity to share the Izaak Walton League's assessment of this bill 
and our views and support of the National Wildlife Refuge System.
                                 ______
                                 
Prepared Statement of James R. Waltman, Director, Refuges and Wildlife 
                    Program, The Wilderness Society
    Mr. Chairman and members of the Committee, I am pleased to testify 
on behalf of The Wilderness Society and our more than a quarter of a 
million members in support of S. 1059, the National Wildlife Refuge 
System Improvement Act of 1997. Founded in 1935, The Wilderness Society 
is devoted to preserving wilderness and wildlife, protecting America's 
national lands, and fostering an American land ethic.
                        s. 1059 is long overdue
    The Wilderness Society has supported ``organic'' legislation for 
the National Wildlife Refuge System similar to that under consideration 
today for close to three decades. Congress made a start towards such a 
statute when it passed the National Wildlife Refuge System 
Administration Act as section 4 of the 1966 Endangered Species 
Preservation Act. But that legislation is far less comprehensive than 
the laws governing the management of our National Parks, National 
Forests, and the public lands administered by the Bureau of Land 
Management.
    The lack of a clear, comprehensive statute for the Refuge System 
has been at least partly to blame for a myriad of problems. The very 
purpose of the system has often been ambiguous. Political pressures 
have led to the establishment and continuation of activities that harm 
wildlife and habitat on the refuges. Planning for the refuges has been 
haphazard at best. Research and monitoring of fish and wildlife 
populations has been lacking. Perhaps worst of all, other federal 
agencies, both within and outside of the Interior Department have often 
``bullied'' the Refuge System. In fact, even the Fish and Wildlife 
Service has occasionally contributed to the undermining of refuges as 
this testimony will later point out.
    Our goals for a Refuge System organic act have been 
straightforward:
    <bullet> An unambiguous statement that the purpose of the National 
Wildlife Refuge System is to conserve the nation's diversity of fish 
and wildlife.
    Although at least in theory, each national wildlife refuge is 
established with an individual purpose of set of purposes, there is no 
Congressionally approved overarching mission statement for the Refuge 
System.
    <bullet> A formal process for reviewing the compatibility of refuge 
activities that provides opportunities for public review and comment.
    Over the years, many of the refuges have been subjected to 
activities that have undermined the purposes for which these areas have 
been established. (See Appendix I for a partial list of government 
reports on these problems). During these years, there have been at 
least three ``major thrusts'' by the Fish and Wildlife Service to 
address these problems, the most recent of which by the Clinton 
Administration. But the endless pattern of broken * * * fixed * * * 
broken * * * fixed will never end unless a formal process is enacted to 
review and reevaluate the compatibility of refuge activities
    <bullet> Affirmative stewardship obligations for the Secretary of 
the Interior to protect and provide for the Refuge System.
    The Refuge System has been a step-child within the federal 
government at least in part because there are few explicit legal 
mandates for the Secretary of the Interior to provide for its well-
being.
    <bullet> A requirement that all national wildlife refuges be 
administered pursuant to a comprehensive conservation plan developed 
with full public involvement.
    Long range planning is essential for the proper and consistent 
management the national wildlife refuges. Unfortunately, by our 
estimation fewer than a sixth of the refuges have prepared such plans 
and some of these are extremely old and out of date.
    <bullet> A marked improvement in the quality of science upon which 
refuge management decisions are based.
    Earlier this decade, as part of its draft Programmatic 
Environmental Impact Statement on the Refuge System, the Fish and 
Wildlife Service indicated that fewer than a third of the refuges had 
even rudimentary inventories of their fish and wildlife populations. To 
ensure that sound decisions are made in the management of the refuges, 
the Fish and Wildlife Service must have an adequate understanding of 
the status and trends of their fish and wildlife populations and 
habitats.
    S. 1059 is not the exact bill that we would have drafted. It is the 
obvious product of compromise. In our view, the bill places too much 
emphasis on recreation. But we are quite pleased that the bill contains 
each of these major elements that we have supported for so many years. 
S. 1059 contains: (1) a clear conservation-based mission statement for 
the Refuge System; (2) a formal compatibility process; (3) affirmative 
duties for the Secretary of the Interior; (4) a planning requirement; 
and (5) improved monitoring of fish, wildlife, and plants in the 
refuges. The latter provision was wisely added to the House-passed bill 
to help ensure that refuge management is based on a firm understanding 
of fish, wildlife, and plant populations.
    In addition, S. 1059 would recognize wildlife observation, hunting, 
fishing, and environmental education as ``priority public uses'' of the 
System. This is an appropriate policy that was the centerpiece of 
President Clinton's Executive Order 12996 on the management of the 
Refuge System. This policy was also included in Representative George 
Miller's ``Theodore Roosevelt Wildlife Legacy Act'' (H.R. 952) which we 
endorsed. The principle is simple. First and foremost, the Refuge 
System should be for the conservation of fish and wildlife and 
habitats. Second, where appropriate and compatible, and when adequate 
funding is available, those recreational and interpretive activities 
that are related to learning about or experiencing fish and wildlife 
should be fostered. Finally, those activities that are not related to 
fish and wildlife should receive the lowest priority on national 
wildlife refuges.
    While we believe that the technical amendments described later in 
this testimony would improve the bill, we urge the Senate to move 
swiftly to pass S. 1059 and not to tinker unnecessarily with this bill. 
No special amendments for specific refuges or specific activities--such 
as utility right-of-ways--are appropriate. Any such amendments would 
cause us to reassess our support of the bill.
       the national wildlife refuge system is a national treasure
    The National Wildlife Refuge System is the only network of national 
lands established specifically to conserve fish and wildlife. The 
System includes more than 92 million acres of the most biologically 
diverse lands in America. From wetlands to forests, tundra to deserts, 
prairies to tidal pools, the National Wildlife Refuge System 
encompasses lands and waters in all 50 states as well as Puerto Rico, 
the Virgin Islands, and far Pacific islands.
    The first refuge was established by President Theodore Roosevelt in 
1903 on Florida's Pelican Island to protect wildlife that was being 
decimated by market hunters. Herons, egrets and pelicans; gulls, terns 
and other shorebirds; and all manner of waterfowl found sanctuary on 
Roosevelt's refuges. Large mammals including bison, elk and antelope 
were also protected. In this sense, the Refuge System was Roosevelt's 
Endangered Species Act. To this day, refuge management forms the core 
of recovery efforts for scores of endangered and threatened species--
from Key deer to whooping cranes, masked bobwhite quail to Ash Meadows 
blazing stars, red wolves to Lange's metalmark butterflies. Many other 
species would be headed for the endangered species list if not for the 
protections afforded by the National Wildlife Refuge System.
    A variety of unique ecosystems have been preserved within the 
Refuge System. Wetlands like the Great Dismal Swamp in Virginia, 
Okefenokee in Georgia, Klamath Basin marshes in northern California-
southern Oregon, and Mississippi River floodplains are found in the 
System. Arctic tundra and prairie potholes, tropical Hawaiian forests 
and Maine woods, Sonoran deserts and high deserts are all found in the 
Refuge System. It would be difficult to invent a better apparatus to 
monitor the status and trends of America's fish and wildlife and their 
habitats than the more than 500 national wildlife refuges.
    The vast majority of the Refuge System (about 95 percent) was 
withdrawn from the public domain. Two million acres (2.3 percent) of 
the System has been acquired with funds from the Land and Water 
Conservation Fund and 1.7 million acres (1.8 percent) has been acquired 
from sales of Duck Stamps to duck hunters and others who purchase the 
stamps as an entrance pass to refuges. Other areas have been acquired 
with funds from the Wetlands Loan Act (the ``loan'' was forgiven by 
Congress when it passed the 1986 Emergency Wetlands Resources Act) and 
from donations.
    For the first half of its ninety-four year history, the Refuge 
System was managed almost entirely to provide complete sanctuary for 
wildlife. The 1929 Migratory Bird Conservation Act continued the 
standard set by Roosevelt, requiring refuges established under its 
authority to be ``inviolate sanctuaries'' for migratory birds. A 
handful of refuges allowed limited hunting. In 1949, an amendment to 
the Duck Stamp Act permitted migratory bird hunting on up to 25% of new 
refuges acquired for migratory bird conservation. In 1958, Congress 
increased this maximum allowable area to 40%.
    Today, the Refuge System provides exceptional opportunities for 
wildlife-related recreation and environmental education. In 1996, over 
27 million people visited national wildlife refuges to observe and 
photograph wildlife. Five million anglers and 1.5 million hunters went 
to the refuges, and nearly 500,000 students visited the refuges for 
environmental education programs. But we visit the refuges on the 
wildlife's terms. Nearly a third of the refuges contain such sensitive 
habitats or wildlife populations that public visitation is prohibited 
because in the Refuge System, wildlife must come first.
                      s. 1059: years in the making
    Just a few years after passage of the 1966 Endangered Species 
Preservation Act and its component National Wildlife Refuge System 
Administration Act, an esteemed panel of wildlife experts issued a 
report to Interior Secretary Stewart Udall on the Refuge System. The 
Leopold Committee, as it came to be known after A. Starker Leopold who 
led the study, reported that ``What is still lacking is a clear 
statement of policy or philosophy as to what the National Wildlife 
Refuge System should be and what are the logical tenets of its future 
development.'' The Committee recognized that without such an underlying 
philosophy, the Refuge System would be unable to resist ``pressure for 
larger picnic grounds, camping facilities, improved swimming beaches, 
motorboat marinas, water skiing, bridle paths, target ranges, and other 
assorted forms of play which are only obliquely related to refuge 
purposes.'' This was the first of numerous such reports on the status 
of the Refuge System (Appendix I).
    In the late 1960's and early 1970's, Mr. Harry Crandell, Wildlife 
Program Director for The Wilderness Society and a former branch chief 
in the Fish and Wildlife Service's Division of Refuges, developed a 
number of ideas for legislation to help address the challenges outlined 
by the Leopold Committee. Mr. Crandell left The Wilderness Society in 
1973 to join the staff of the House Interior and Insular Affairs 
Committee where he worked closely with Congressman John Dingell. Many 
of Mr. Crandell's concepts were included in Congressman Dingell's 
``National Wildlife Refuge System Organic Act of 1974.'' While that Act 
did not pass, a number of its provisions became law as the 1976 ``Game 
Range'' amendments to the National Wildlife Refuge System 
Administration Act.
    A decade later, after a career which spanned 24 years in the Fish 
and Wildlife Service and included the position of Chief of the agency's 
Division of Refuges, Mr. William Reffalt became the Society's Program 
Director for refuges and reinitiated efforts to update Refuge System 
law. After producing several reports on the widespread problems that 
the Refuge System was experiencing with incompatible commercial, 
recreational, and other activities, the Society helped persuade 
Congressmen Mike Synar and Gerry Studds to direct the General 
Accounting Office (GAO) to investigate these problems. In 1989, the GAO 
released its report: National Wildlife Refuges: Continuing Problems 
with Incompatible Uses Call for Bold Action. Between 1989 and 1994, The 
Wilderness Society and other conservation organizations vigorously 
supported Refuge System legislation introduced by Senator Bob Graham 
and Congressmen Studds, Synar, and Sam Gibbons in response to the GAO's 
report.
    In 1994, we supported the compromise bill developed with the help 
of staff from Senator Graham, Senator Baucus, Senator Chafee, and 
Senator Kempthorne and approved by the Environment and Public Works 
Committee. Notably, that bill had the support not only of The 
Wilderness Society and other conservation groups, but also the 
International Association of Fish and Wildlife Agencies, the Wildlife 
Management Institute, National Rifle Association, Wildlife Legislative 
Fund of America, and other recreation interests.
    During the 104th Congress and first months of the current 
Congressional session, The Wilderness Society and other conservation 
groups fought vigorously against the House bill whose title is now 
shared by S. 1059--all the while expressing frustration that the hard 
fought compromise of 1994 had been abandoned.
    Today, once again we have an opportunity to pass a bill with broad 
support. Let's make sure we finish the job this time.
   wildlife-dependent recreation is appropriate in the refuge system
    America's hunters have made a valuable contribution to the National 
Wildlife Refuge System. With the purchase of Duck Stamps, waterfowl 
hunters and others who purchase the stamps as an entrance pass to 
refuges have funded the acquisition of 1.7 million acres (1.8 percent) 
of refuge lands. Many hunters were strong supporters of the Refuge 
System even in the first forty-six years of the system's history when 
hunting was a rare exception on refuges.
    Although existing law already recognizes hunting as an appropriate 
use in the Refuge System that may be permitted where determined to be 
compatible with refuge purposes and when funds are available to 
administer it, S. 1059 would further declare hunting to be one of 
several activities to be considered ``priority public uses.'' The House 
passed its version of this bill by near unanimous vote. If there are 
any organizations devoted to eliminating hunting from the Refuge System 
they must be the least persuasive around.
    If The Wilderness Society has any lingering disappointment 
regarding the bill before the Committee, it is that the debate 
surrounding it has been so dominated by this one issue. Hunting can be 
an appropriate use of areas within the Refuge System. Having 
established this with utter certainty, we hope that discussions about 
the future of the Refuge System will focus more on the conservation 
issues facing these lands and waters, including endangered species 
preservation and recovery, wilderness protection and restoration, and 
water quality and quantity.
endangered species conservation on the refuges: are we getting the job 
                                 done?
    Although we urge the Committee and the Senate to pass this bill as 
expeditiously as possible, once this bill is enacted, we urge you to 
review more closely the many important conservation issues facing the 
Refuge System. For starters, the Refuge System would benefit from a 
thorough review of the efficacy of its programs to protect and recover 
threatened and endangered species. This may be an appropriate topic for 
a hearing in conjunction with your efforts to reauthorize the 
Endangered Species Act.
    Management of the National Wildlife Refuge System represents an 
important part of the federal government's share in the effort to 
protect and recover endangered and threatened species. More than 60 
national wildlife refuges have been established specifically to 
conserve endangered and threatened species. In addition, a provision of 
the 1966 National Wildlife Refuge System Administration Act amended the 
purposes of all refuges established pursuant to the Migratory Bird 
Conservation Act so that such refuges are to be administered to 
``conserve and protect migratory birds in accordance with treaty 
obligations * * * and [to conserve] other species of wildlife found 
thereon, including species that are listed pursuant to [the Endangered 
Species Act].'' Refuge lands established under the Refuge Recreation 
Act are also to be administered for endangered or threatened species. 
All told, 482 refuges provide more than 250 listed species with vital 
habitats at some point in their life cycle.
    One would hope that the Fish and Wildlife Service would place a 
high priority on the management of threatened and endangered species on 
refuges--particularly on those refuges established specifically to 
conserve such species. For a rough assessment of how imperiled species 
were doing on the refuges and other national lands, we reviewed the 
Service's 1994 report on the status of recovery efforts and species 
inventories for each of the four major national lands agencies. As we 
would have expected (and hoped), according to the Service's 1994 
report, species occurring on refuges were fairing better than average: 
20% of the endangered and threatened species that occurred on refuges 
were improving and 37% were stable. This index of success (57% 
improving or stable) was nearly twice the rate for species that did not 
occur on refuges. On the 60 refuges established specifically to 
conserve endangered and threatened species, 25% were improving and 44% 
were considered to be stable.
    For species occurring on U.S. Forest Service lands, 14% were 
improving and 31% were stable. Numbers for the Bureau of Land 
Management and National Park Service were most likely artificially 
high. Ten percent of the listed species on BLM lands were improving and 
36% stable, but BLM reported only those species on which they had spent 
conservation funds in the last four fiscal years. We would expect 
species that occur on BLM lands but for which the agency has not 
expended resources to be doing more poorly and thus would bring down 
these percentages. Twenty percent of listed species occurring on 
national parks were increasing and 37% stable, but the most recent 
species lists the National Park Service had was from 1988--species 
listed more recently are generally in worse shape that those for which 
the Endangered Species Act has had a number of years to work and we 
would therefore expect more recently listed species to lower these 
percentages as well.
    While these admittedly rough calculations suggest that, compared to 
other federal lands, the Refuge System is doing better than average at 
conserving endangered species, real problems do exist--even on those 
areas established specifically to conserve listed species. 
Unfortunately, the Fish and Wildlife Service sometimes shares 
accountability for these problems.
    <bullet> The Cabeza Prieta National Wildlife Refuge (AZ) contains 
nearly all of the critically endangered Sonoran pronghorns in existence 
in the United States. Fewer than 150 of these animals exist today. Yet 
the Fish and Wildlife Service recently issued an incidental take permit 
for the Marine Corps to harass this endangered species while increasing 
by fivefold its low level training flights over the refuge. The Marines 
have several alternative training sites; the pronghorn has no where 
else to go.
    <bullet> The Bon Secour National Wildlife Refuge was established by 
an act of Congress in 1980 ``to preserve fragile barrier island habitat 
along the Alabama Gulf Coast'' for a variety of wildlife species 
including ``nationally endangered and threatened species indigenous to 
this ecosystem.'' Yet recently one division of the Fish and Wildlife 
Service has issued incidental take permits for condominium developers 
to destroy habitat for the endangered Alabama beach house and kill 
individuals of this species within the acquisition boundary of this 
national wildlife refuge established for their protection.

        Of course, the developments would also destroy habitat for a 
        large number of migratory birds would arrive here from their 
        wintering grounds in Central and South America and the many 
        other species that depend on the rapidly disappearing barrier 
        island ecosystem. In fact the development to be permitted by 
        the Service is to occur within an area designated as ``Priority 
        I'' lands for acquisition by another unit of the very same 
        agency. If ever there was a case of the right hand not knowing 
        what the left is doing, this is it.

    Unfortunately, research that we have conducted over the past 
several months indicates that a number of the refuges that have been 
established specifically to conserve endangered species have also been 
harmed by simple neglect--even as the Fish and Wildlife Service has 
found the means to increase recreational programs across the Refuge 
System. Of the 44 endangered species refuges that we have contacted to 
date, 12 had no staff or budgets and were administered nominally from 
other refuges sometimes hundreds of miles away; and 7 had very limited 
staff and no biologists. Ten of the refuges fully acknowledged to us 
that they have no monitoring programs in place for the species under 
their care and could not therefore hazard a guess as to whether the 
species are increasing or declining.
    <bullet> The Crocodile Lakes NWR (Florida) has no staff based 
within 2 hours of the refuge. As a result, poaching of this endangered 
species continues. The staff that are nominally assigned to this refuge 
has no idea of the population numbers or status of the crocodiles 
because there are no monitoring programs in place. The refuge is also 
home to two endangered rodent species and an endangered butterfly.
    <bullet> Ten of 19 endangered Mississippi sandhill cranes at the 
Mississippi Sandhill Crane NWR (Mississippi) were killed by predators 
which broke through a deteriorating holding pen prior to the birds 
release.
    <bullet> Piping plover breeding success has dipped at the E.B. 
Forsythe NWR (New Jersey) after sustained increases, perhaps because 
the refuge's seasonal position in charge of monitoring and protecting 
the birds from disturbance was eliminated.
    <bullet> Antioch Dunes NWR was created to protect two plant and one 
butterfly species that are found only on the refuge. Unfortunately, 
exotic plants and beetles have invaded the refuge and threaten these 
species. Little has been accomplished to address these threats because 
there are no staff dedicated to the refuge. The refuge shares one part-
time biologist with four other refuges.
    <bullet> Watercress Darter, Fern Cave, Key Cave and Blowing Winds 
Cave refuges have been established in Alabama to conserve endangered 
and threatened species but none of these refuges have any dedicated 
staff. Staff from the Wheeler refuge visit these four refuges about 2 
or 3 times a year.
    <bullet> Green Cay NWR is home to 98% of the entire population of 
the St. Croix Ground Lizard. However, non-indigenous rats are killing 
the trees and seedlings and that make up the forest canopy within which 
the lizard survives. Plans for a rat control and reforestation project 
have been developed by the refuge manager, but these have not been 
implemented because the refuge has no dedicated budget or staff.
    Clearly many of these problems are related to funding or the 
implementation of the Endangered Species Act. It is unclear to what 
extent S. 1059 will address these concerns. We are hopeful, however 
that this bill will help raise the stature of the National Wildlife 
Refuge System and enable it to achieve its great potential to conserve 
America's fish and wildlife.
   refuge system operations and maintenance funding must be increased
    As indicated above, many of the problems facing the National 
Wildlife Refuge System are due to inadequate funding and staffing (see 
attached cover story from Memphis Commercial Appeal). We are pleased 
that the House-passed Interior Appropriations bill contains a 
significant increase for this purpose and that the Senate 
Appropriations Committee has provided most of the increase contained in 
the House bill. On this point we want to say a special thank you to 
Senators Kempthorne and Graham for spearheading a letter to the 
Appropriations Committee in support of the House level and to Senators 
Chafee, Reid, Lieberman, Moynihan, and the others who signed that 
letter. We hope the conference will approve the full House amount.
                               conclusion
    In conclusion, The Wilderness Society supports S. 1059 and urges 
its prompt passage by the U.S. Senate. We are hopeful that this bill 
will help combat political pressures that have often led to the 
establishment and continuation of activities that harm wildlife and 
habitat on the refuges. It will ensure that comprehensive plans are 
developed for each refuge. It will improve research and monitoring of 
fish and wildlife populations on the refuges. And perhaps most 
importantly, this bill should help raise the stature of the National 
Wildlife Refuge System and help it reach its great conservation 
potential.
    While we believe that the technical amendments described in the 
attachment to this testimony would improve the bill and would not upset 
the delicate political balance upon which it is founded, we urge the 
Senate not to tinker unnecessarily with S. 1059. No special amendments 
for specific refuges or specific activities--such as utility right-of-
ways--are appropriate. Any such amendments would cause us to reassess 
our support of the legislation. The Wilderness looks forward to working 
with the Committee to enact the National Wildlife Refuge System 
Improvement Act.
                                 ______
                                 
                Technical Amendments to Improve S. 1059
    S. 1059 could be improved with the following technical amendments. 
However we urge the Senate to pass this bill promptly and to refrain 
from any unnecessary amendments that would slow the bill's passage. In 
particular, no amendments for specific refuges or specific uses are 
appropriate at this time.
    <bullet> S. 1059 contains a definition for the word ``compatible'' 
that we believe is overly vague (``a use that will not materially 
interfere with or detract from'' refuges purposes). We understand that 
the definition has been in the Fish and Wildlife Service's policy 
manual for a number of years but believe that at times it has not been 
workable. The House Resources Committee clarified in its Committee 
Report on the bill H.R. 1420 that a compatible use is one that will not 
have a ``tangible adverse impact'' on refuge purposes. We suggest that 
this language is more workable than that provided in the bill and that 
it may make sense to simply insert this ``operational standard'' into 
the bill.
    <bullet> We have had some concerns that the bill's provision 
establishing the compatibility process could be construed by some to 
actually increase administration discretion in allowing uses and 
decrease public accountability for those reviews of agency decisions. 
Specifically, the bill states that compatibility decisions are to be 
based on the ``sound professional judgment'' of the Director. The bill 
subsumes the role of science within the judgment of government 
officials (definition ``3''). The parenthetical phrase (``sound 
professional judgment'') has raised the concern that a court, in 
evaluating whether an allowed use meets the compatibility standard, 
would conclude that the decision is ``committed to agency discretion by 
law'' within the meaning of the Administrative Procedures Act, and is 
therefore not reviewable.
    To address this concern, the Committee could modify the draft's 
definition of compatibility so that these decisions are ``based on the 
best available science and reflect the best professional judgment of 
the refuge official.'' This is the approach that all active parties 
agreed to in a negotiated redraft of Senator Bob Graham's bill in the 
103rd Congress
    This concern was at least partially addressed in the House 
Committee Report with language ensuring that compatibility reviews will 
continue to be reviewable, although we'd still prefer the underlined 
bill text to ensure that too much discretion is not granted to the 
agency and that science is more clearly the determining factor.
    <bullet> Section 6 of the bill authorizes the Interior Department 
to enter agreements that exempt activities ``authorized, funded, or 
conducted'' by other federal agencies from the compatibility standard 
on the several dozen so-called ``overlay'' refuges. Overlay refuges are 
those that are managed by the Fish and Wildlife Service as a refuge but 
are held in title by another agency. For example, the Corps of 
Engineers was required to set aside land as a national wildlife refuge 
to mitigate the impacts of a number of its projects but continues to 
hold title to a number of these refuges.
    We believe that it makes no sense to exempt from the compatibility 
standard activities of such agencies on lands that were set up to 
mitigate activities of those same agencies. At the very least, this 
provision should be limited to only those activities that are directly 
related to the purpose that the agency is there in the first place. In 
other words, the Corps could do things that it needed to do to in 
accordance with its projects but couldn't authorize incompatible county 
road construction, ball fields, or other unrelated activities.
    In addition, oversight by the Committee on the status of these 
``overlay'' refuges at some point in the future would be helpful.

[GRAPHIC] [TIFF OMITTED] TH286.040

[GRAPHIC] [TIFF OMITTED] TH286.041

[GRAPHIC] [TIFF OMITTED] TH286.042

[GRAPHIC] [TIFF OMITTED] TH286.043

[GRAPHIC] [TIFF OMITTED] TH286.044

                     American Mosquito Control Association,
                                                     July 30, 1997.
Hon. John H. Chafee,
U.S. Senate, Washington, DC.
    Dear Senator Chafee: I am writing to you today about a 
matter of national public health importance. It relates to H.R. 
1420, an amendment to the National Wildlife Refuge System 
Administration Act, that is currently under consideration by 
the Senate Subcommittee on Drinking Water, Fisheries and 
Wildlife. As currently written, this legislation clarifies the 
mission of the refuge system but lacks a provision for 
protecting certain aspects of the public's health in and around 
these federal lands.
    The American Mosquito Control Association (AMCA) and its 
2,000 members from local mosquito and vector control programs, 
various state and federal agencies, university professors and 
researchers, and others dedicated to the prevention and control 
of mosquitoes in all 50 states, does not believe that this bill 
adequately addresses public health risks that may be created by 
existing natural conditions or current water management 
practices on federal refuges. We have enclosed a brief summary 
expressing our concerns and are submitting recommended 
amendments that we believe should be incorporated into this 
legislation.
    The AMCA hopes that these amendments can become part of 
H.R. 1420 as it is revised so that the many visitors and 
adjacent residents can more fully utilize and enjoy these 
refuges without danger to their health and well-being. The 
procedures that we endorse are environmentally compatible with 
the mission and objectives of the federal wildlife refuge 
programs.
    Members of our Association are available at any time to 
meet with you or your staff to discuss this situation.
            Sincerely,
                                      Gary G. Clark, Ph.D.,
                                                         President.
                                ------                                


    Prepared Statement of the American Mosquito Control Association 
  Containing Recommended Language to Address the Public Health Issues 
                       Associated with H.R. 1420

    Good day. I would like to thank you, Senator Kempthorne, 
and other distinguished members of the Senate Subcommittee on 
Drinking Water, Fisheries and Wildlife for the opportunity to 
attend your Subcommittee meeting today and discuss an important 
matter with you. I am Dr. William H. Meredith of the Delaware 
Department of Natural Resources and Environmental Control, and 
today I represent the American Mosquito Control Association 
(AMCA) of which I am a member. I am accompanied today, also in 
representation of the AMCA, by Ms. Judy A. Mansen, 
Superintendent of the Cape May County (New Jersey) Mosquito 
Commission and Past-President of the AMCA; and by Mr. Chester 
J. Stachecki, Jr., Program Administrator of the Delaware 
Mosquito Control Section in the Department of Natural Resources 
and Environmental Control, who is Past-President of the Mid-
Atlantic Mosquito Control Association.
    On behalf of Dr. Gary G. Clark, President of the AMCA and 
its members, I will present a position statement from our 
Association for your consideration and action in regard to the 
National Wildlife Refuge System Improvement Act of 1997 (H.R. 
1420). In association with this position statement, I would 
like to offer several worthy amendments developed by the AMCA 
for your consideration, which we hope you will adopt and 
include in the proposed act.
    Before I begin, I would like to give a little background 
about our Association. The AMCA is a professional association 
with over 2,000 members from all 50 states, Canada and many 
other countries. The AMCA's membership is composed of front 
line, operational mosquito control personnel in state, county 
or municipal mosquito abatement or vector control programs or 
in federal military service; federal, state or academic-based 
scientists in fields of entomology, public health, 
epidemiology, toxicology, ecology, wildlife management, aquatic 
biology or other scientific disciplines; and technical 
representatives from companies that manufacture mosquito 
control products and equipment or which provide mosquito 
control services. For over 60 years, since its founding in 
1935, the AMCA has promoted safe, responsible, environmentally-
sensitive mosquito control practices to safe-guard the public's 
health, safety and welfare. The legacy of this scientifically-
based approach to mosquito control has been the protection of 
humans and domestic animals from pestiferous and disease-
carrying mosquitoes, increased recreational opportunities and 
tourism, and enhanced residential and commercial development in 
urban areas. Benefits of organized mosquito control have been 
realized by many of the states represented on the Environment 
and Public Works Committee.
    The AMCA believes and actively promotes an Integrated Pest 
Management (IPM) approach to solving mosquito production 
problems. The IPM strategy ensures that efficacious, cost 
effective mosquito control is achieved in a safe and 
environmentally-compatible manner. The AMCA's recent 
recognition by the U.S. Environmental Protection Agency (EPA) 
as an exemplary partner in the EPA's ``Pesticide Environmental 
Stewardship Program'' reflects the AMCA's commitment to this 
approach. The AMCA is one of only a handful of organizations 
receiving this unique distinction.
    The proposed National Wildlife Refuge System Improvement 
Act of 1997 (H.R. 1420) addresses many of the problems 
associated with the management of the nation's federal wildlife 
refuges. However, the proposed act does not address the issue 
of the health and well-being of refuge visitors and residents 
living near these federal properties. As background, it is 
important to understand that many wildlife refuges, by the 
nature of their existence, produce very large numbers of 
mosquitoes that affect the health and well-being of human and 
domestic animal populations. State-operated wildlife refuges, 
which can create similar mosquito problems, accommodate or 
routinely pay service fees for mosquito control and strive to 
develop management plans that reduce mosquito problems and thus 
their costs for control. In contrast, federal wildlife refuges 
do not presently have any such incentives, and as a result of 
existing natural conditions or current water management 
practices, many continue to produce large numbers of 
mosquitoes. Many of these mosquitoes are a major pest problem 
while others pose an increased risk of human disease to people 
in certain parts of California, Virginia, Florida, Maryland, 
Oregon, New Jersey, Massachusetts, Michigan, Delaware, 
Louisiana, North Carolina, Texas, and other states. This 
problem is exacerbated when refuges are established or exist in 
proximity to urban population centers.
    The specific problems created by the presence of these 
mosquitoes represent a potentially serious public health threat 
(that can and must be alleviated). Many of the mosquito species 
produced on these refuges transmit diseases such as mosquito-
borne (arboviral) encephalitis and malaria to humans and equine 
encephalitis and dog heartworm to animals. Additionally, 
negative quality-of-life and economic impacts on tourism and 
local development are created when swarms of mosquitoes 
produced on these refuges move into residential and 
recreational areas beyond the refuge boundaries and begin to 
take blood from children and adults. Some of the mosquitoes 
produced on refuge property fly up to 20 miles in search of a 
blood meal. Presently, the control response for the mosquitoes 
from these federal refuges, in those areas where organized 
mosquito control exists, is provided by local taxing districts, 
or state or local control programs. Often these programs do not 
receive adequate operating funds to abate the problems that 
originate on federal property, or are hindered by refuge 
management policies from implementing appropriate control 
procedures.
    Clearly, this is not an isolated problem present on one or 
two refuges, but one of national dimensions. A problem of this 
magnitude can only be addressed through statutory reform of the 
administration of federal wildlife refuge system and by 
legislation such as H.R. 1420. Developing a statutory charge 
for the Department of the Interior to provide for or 
accommodate mosquito control on refuge lands is the best way to 
promote the resolution of differences between mosquito control 
programs and refuge managers.
    To address this situation, the AMCA offers seven specific 
amendments for inclusion in the current version of H.R. 1420 
that is being considered by the Senate Subcommittee on Drinking 
Water, Fisheries, and Wildlife (see Appendix 1). The AMCA 
recommends that these amendments be incorporated as legislation 
on federal refuge reform is formulated.
    The first issue of concern to the AMCA is responsibility 
for production of mosquitoes. The language in Amendment 1 
places responsibility for resolving the problems associated 
with mosquito production on national wildlife refuges directly 
with the agency and specific refuge administrator responsible 
for creating or allowing these problems to occur. Just as 
importantly, it encourages development of a cooperative and 
collaborative working relationship with state or local mosquito 
control programs to implement environmentally-compatible 
control measures. The recommended changes also provide a 
significant incentive for refuge administrators to utilize 
appropriate water management practices to prevent mosquito 
production.
    The second issue (Amendment 2) relates to the recognition 
that refuge management practices can have an impact on the 
public health of the surrounding community. This impact should 
be understood, considered and addressed by the refuge 
administrator.
    In Amendment 3, the AMCA reiterates its concern about due 
consideration of public health problems originating on refuge 
property, utilization of appropriate management practices to 
mitigate mosquito production, and consultation with 
knowledgeable public health officials in the prevention or 
resolution of these problems.
    In paragraph L in Amendment 3, we recommend addition of 
this public health language requiring that refuge 
administrators consider the impact of refuge operations on the 
production of mosquitoes and other organisms that adversely 
affect the health and well-being of humans and domestic animals 
that live on or near their refuges, and encourage them to take 
reasonable steps to reduce these impacts. Clearly, this 
statutory language is needed to require the System and its 
refuge administrators to consider and reduce mosquito problems 
that originate on the property that they manage. Without this 
statutory language, the AMCA is concerned that some individual 
administrators within the Refuge System will continue as in the 
past to allow or accept the creation of mosquito problems 
without being held accountable for the prevention or resolution 
of these problems.
    The language in paragraph M in Amendment 3 sends a strong 
message to refuge administrators about the importance of public 
health, safety and well-being of refuge visitors and in 
particular refuge neighbors, and encourages administrators to 
reduce problems by utilizing appropriate water management 
practices and other measures to prevent and control as much as 
possible the production of mosquitoes and their movement beyond 
refuge boundaries.
    The language in paragraph N ensures that refuge 
administrators will consult knowledgeable public health 
officials on the safest, most effective, environmentally-
sensitive, and cost efficient ways to mitigate the threat to 
public health and safety in and near the System. When properly 
applied, the abatement practices that the AMCA is advocating 
are entirely compatible with the mission and goals of the 
federal wildlife refuge system.
    The statutory language in Amendment 4 is needed to ensure 
that steps are taken to reduce risks to public health, safety 
and well-being through the establishment of regulations by the 
Secretary, along with other proposed regulations.
    The language in Amendment 5 reinforces the need to take 
steps to reduce risks to the public health, safety and well-
being and that these issues are considered as compatible uses.
    Amendment 6 simply adds the words ``* * * health and'' in 
an existing phrase in the bill, and reiterates the point that 
refuge uses are consistent with public health and safety.
    The statutory language in Amendment 7 is needed to ensure 
that state and local health and mosquito control officials are 
given an opportunity to advise the Secretary or specific refuge 
administrators on the public health impacts of proposed 
conservation plans and how to mitigate any negative impact on 
public health.
    In summary, the AMCA offers these amendments in an effort 
to statutorily ensure that the System and its refuge 
administrators consider and address the threat to public health 
that is being created on many of our national wildlife refuges. 
We believe that once the problems have been identified and 
responsibility for the resolution of these problems is placed 
with the administrators of the System, many quality-of-life and 
public health problems that currently exist will be prevented 
or mitigated by the use of modern mosquito control practices. 
This, will make areas nearby or adjacent to national wildlife 
refuges, and even the refuges themselves, healthier and more 
enjoyable environments.
    The AMCA and its members throughout the United States 
strongly encourage the adoption of these statutory changes.
                                ------                                


                               Appendix 1

 Amendments to H.R. 1420 (National Wildlife Refuge System Improvement 
   Act of 1997) offered by the American Mosquito Control Association

    (1) Amend Section 2 (FINDINGS) by adding a new paragraph 
(6) and renumbering subsequent paragraphs.

          ``(6) The System provides for the protection of 
        public health, safety and well-being of the communities 
        in and near refuges by providing for or incorporating 
        appropriate mosquito control activities on refuge 
        land.''

    (2) Amend Section 5(a)(4)(C) (ADMINISTRATION OF THE SYSTEM) 
by adding the following phrase after the words, ``the United 
States,'' on line 19.

          ``(C) * * *, to promote public health within the 
        System and its surrounding communities,''

    (3) Amend Section 5 (ADMINISTRATION OF THE SYSTEM) by 
adding new paragraphs (L), (M), and (N), and renumbering 
subsequent paragraphs.

          ``(L) consider the impacts of refuge and System 
        operations on the production of mosquitoes and other 
        organisms that adversely affect the health and well-
        being of humans who use the refuge and System or who 
        live nearby, as well as domestic animals on or near 
        refuges, and take reasonable steps to reduce these 
        impacts;
          (M) promote the public health, safety and well-being 
        of Refuge visitors and neighboring urban and rural 
        communities by using appropriate water management and 
        mosquito control practices to prevent or diminish, as 
        much as possible, the production of pestiferous or 
        disease-carrying mosquitoes and their movement from 
        Refuges;
          (N) consult with the Secretary of Health and Human 
        Services, including but not limited to the Centers for 
        Disease Control and Prevention; state and/or local 
        public health departments; and state and/or local 
        mosquito or vector control districts, concerning 
        efforts to mitigate threats to public health and safety 
        in and near the System,''

    (4) Amend Section 6 (COMPATIBILITY STANDARDS AND 
PROCEDURES) by adding a new paragraph (v) to Section 4(d)(3)(B) 
which reads as follows:

          ``(v) provide for steps to be taken to reduce any 
        unintended or inadvertent risks to the public health, 
        safety and well-being associated with any use,''

    (5) Amend Section 6 (COMPATIBILITY STANDARDS AND 
PROCEDURES) by adding a new paragraph to Section 4(d)(4) which 
reads as follows:

          ``(C) any steps taken to reduce any unintended or 
        inadvertent risks to the public health, safety and 
        well-being associated with management of a refuge.''

    (6) Amend Section 6 (COMPATIBILITY STANDARDS AND 
PROCEDURES) by inserting a new phrase after the word ``public'' 
in line 21 in Section 4(d)(3)(A)(I) which reads as follows:

          ``(I) * * * health and''

    (7) Amend Section 7 (REFUGE CONSERVATION PLANNING PROGRAM) 
by adding a new phrase after the word ``governments'' on line 
24 in Section 4(e)(4)(A) which reads as follows:

          ``(4)(A) * * * state and local public health 
        officials, state and local mosquito abatement 
        officials,''
                                ------                                


         Prepared Statement of the American Petroleum Institute

  S. 1059: The National Wildlife Refuge System Improvement Act of 1997

    The American Petroleum Institute (API) is a trade 
association with over 350 members engaged in all aspects of the 
petroleum industry. API respectfully submits this statement of 
its views for the record in S. 1059, the National Wildlife 
Refuge Improvement Act of 1997.
    According to U.S. Fish and Wildlife Services (FWS) 1995 
data, the oil and gas industry produces hydrocarbons from over 
1100 wells on 36 federal wildlife refuges in the states of 
Alaska, Alabama, Arkansas, California, Kansas, Louisiana, 
Michigan, Mississippi, Montana, North Dakota, New Mexico, 
Oklahoma, and Texas. Louisiana has 607 wells on wildlife 
refuges. There are 346 active wells on wildlife refuges in 
Texas, according to the FWS data. As a result, there are also 
significant appurtenant oil and gas production facilities on 
wildlife refuges, as well as numerous oil and gas pipelines 
that traverse wildlife refuge lands. Oil and gas production has 
occurred on these lands for many years.
    Our industry has an exceptional record as an environmental 
steward on these refuge lands, conducting its activities in a 
safe, careful and thoughtful manner fully compatible with 
wildlife-dependent activities.
    For example, Conoco, an API member company, has conducted 
exploration activities and operated wells in the Aransas 
National Wildlife Refuge on the Texas Gulf Coast for more than 
50 years. Aransas is home to hundreds of wildlife species, 
including the endangered whooping crane. Wetlands, and native 
grasses and oaks also thrive along side exploration, production 
and pipeline transportation in the refuge. Yet the whooping 
crane population has increased from a low of 15 birds that 
wintered in Texas in 1941, to a flock of over 140 birds that 
wintered on or near Aransas in 1994. This example of the 
compatibility of oil and gas industry activities on wildlife 
refuges is not an isolated one.
    Another example of our industry's excellent environmental 
records within wildlife refuges is the case of Chevron's 
stewardship within the Delta National Wildlife Refuge in 
Louisiana. The 48,000 acre refuge is located on the 
southernmost edge of Louisiana where the Mississippi River 
empties its suspended sediment load into the Gulf of Mexico. 
Along with 240 species of birds that live in or migrate through 
the refuge, there are also significant deer and alligator 
populations. Chevron has operated there since 1949. In 1997 it 
received the National Health of the Land Award presented by the 
Bureau of Land Management of the U.S. Department of the 
Interior for its outstanding environmental practices in 
managing its Romere Pass field within the Refuge. Chevron has 
worked not just to preserve, but to enhance the environment 
within the Refuge by funding the creation of more than 300 
acres of new marsh land within the Refuge, resulting in new 
habitat for many species. Chevron has compatibly produced over 
100 million barrels of oil and 445 billion cubic feet of 
natural gas from about 100 wells within that Refuge.
    Kerr-McGee, another API member, has operated in the Breton 
Sound National Wildlife Refuge since the early 1950's. More 
than 100 million barrels of oil and 320 billion cubic feet of 
gas have been produced there. Current production totals 7500 
barrels per day. The FWS has also repeatedly honored Kerr-McGee 
for its outstanding environmental record for production in 
environmentally sensitive areas.
    Since API members engage in substantial activities on 
wildlife refuges, API is concerned that several provisions in 
H.R. 1420--the substantially similar wildlife refuge 
improvement bill passed by the House of Representatives in May 
1997--may be misinterpreted by regulators or the courts as 
signaling a change in the current national policy that oil and 
gas operations are generally compatible uses in numerous 
refuges. As a result, periodic compatibility reviews could 
become permit conditioning exercises, or subject oil industry 
operations to challenge on the grounds that oil and gas 
activities are per se disfavored because they do not constitute 
a wildlife-dependent use, as defined in the bill.
    The definition of ``compatible use'' in the Senate bill 
includes the phrase ``other use'' in addition to the 
``wildlife-dependent recreational use'' definition passed in 
H.R. 1420. API believes that this addition clarifies that oil 
and gas activities are valid, compatible uses within wildlife 
refuges, and are in no manner subordinate, disfavored or 
inconsistent with the public safety standard, the mission of 
the system, or other goals and findings declared in S. 1059.
    Development of oil field infrastructure, including wells, 
pipelines, and rights-of-way are very capital intensive. 
Activities within environmentally-sensitive areas such as 
wildlife refuges can increase investments materially. Company 
engineers, biologists, hydrologists, and other scientists have 
worked with refuge managers to design environmental safeguards, 
almost always at significant added cost. API members have 
demonstrated significant abilities in working with refuge 
managers to protect and enhance wildlife and habitat while 
producing domestic oil and gas supplies. API and its members 
believe that report language, floor statements, and final bill 
language in S. 1059 should remove any ambiguity that could 
unintentionally result in a change of national policy that has 
permitted compatible, environmentally sound oil and gas 
activities on wildlife refuge lands for many years.
                                ------                                


          Prepared Statement of the Edison Electric Institute

      The National Wildlife Refuge System Improvement Act of 1997

    The Edison Electric Institute (EEI) is pleased to be able 
to submit written testimony to the Senate Environment and 
Public Works Committee for consideration during its 
deliberations on S. 1059, the National Wildlife Refuge System 
Improvement Act of 1997. It does so on behalf of the 202 
shareholder-owned electric utilities that comprise its 
membership.
    S. 1059 and its nearly identical House-passed companion 
measure, H.R. 1420, is significant legislation. The legislation 
will strengthen the overall management of the nation's wildlife 
refuges, wielding them from 508 disparate, individual units 
into a system whole. The proposed administrative and management 
changes will encourage greater consistency in decision-making 
among the different refuges and provide minimum procedural 
steps, including public participation, that should be followed 
by refuge managers. Most importantly, S. 1059 appears to 
resolve a long-standing controversy regarding the continuation 
of hunting, fishing, and other wildlife- dependent recreation 
within the refuges in a way that is acceptable to all sides 
with an interest in the issue.
    EEI and its member companies believe that many of these 
changes will benefit the refuge system, the species they 
protect, and the American public for whom they are conserved. 
At the same time, inasmuch as the primary consideration in 
drafting and negotiating this legislation was a resolution of 
the wildlife-dependent recreation controversy, EEI believes 
that it is appropriate for the Committee to look beyond this 
issue and consider the potential effect of the proposed bill on 
other significant and important uses within the nation's 
individual refuges. These uses range from non-wildlife-
dependent recreation, such as rock climbing, boating, and 
hiking, to productive uses, such as oil and gas production, and 
especially rights-of-way for roads, electric power transmission 
and distribution lines, oil and gas pipelines, 
telecommunications and canals. Many of these uses have had a 
long-standing presence in some refuges and have been regarded 
as appropriate compatible uses of their respective refuges. 
Indeed, under current law, the Secretary of the Interior is 
given explicit authorization to approve rights-of-way where 
they are compatible with the specific purposes of the refuges 
where they are located. It is under these determinations that a 
number of EEI member companies own, operate, and maintain 
transmission and distribution lines within various refuges.
    EEI is concerned that various provisions of the bill, taken 
together, may compel a change in the current Fish and Wildlife 
Service view that rights-of-way are generally compatible uses 
of the refuges, and convert long-term rights-of-way permit 
periods into de facto 10-year terms. EEI discussions with the 
House Resources Committee and with key negotiators for 
Secretary Babbitt, indicate that these results were not the 
negotiators' intent and would be unintended consequences. These 
views were expressed in a June 3 colloquy between Resources 
Committee Chairman Don Young and Rep. Saxton (on behalf of Rep. 
Goss) during the House floor debate on H.R. 1420. (See 
attached) Believing that the colloquy cannot and does not 
wholly address EEI concerns, EEI is pleased that the Committee 
has a fresh opportunity to evaluate how the bill may affect 
rights-of-way as a continuing use of the nation's refuges.
    Since there are 92 million total acres in the national 
refuge system, it will not surprise the Committee that in some 
places in the country, the provision of electricity to rural 
and urban population centers has required the establishment of 
utility corridors through refuges for transmission and 
distribution lines and their related facilities. Some of these 
rights-of-way are of recent origin. Some existed prior to the 
creation of a particular refuge and only became subject to 
refuge restrictions upon incorporation. In other instances, 
wildlife refuges have been created on land leased by utilities 
to the Fish and Wildlife Service for that purpose so long as 
transmission lines and related facilities can continue to be 
operated, maintained, and, if necessary, expanded to assure a 
reliable supply of electricity to the given utilities' customer 
base.
    In all of these situations, shareholder-owned utilities 
have been an important partner in helping refuge managers to 
fulfill the purposes of the individual refuges. Utilities, as 
large landowners, have a long tradition of sound and effective 
management of habitat and wildlife. Utility rights-of-way and 
related buffer zones, where ever they are located, frequently 
provide excellent habitats, including valuable edge 
environments for threatened and endangered plants, birds, and 
animals. A number of these that are especially good for 
observing wildlife have been referenced in the Defenders of 
Wildlife's Watchable Wildlife Viewing Guides. Our member 
companies are therefore justifiably proud of their fish and 
wildlife expertise, and it is this experience they bring to the 
table when rights-of-way transverse a refuge system.
    Furthermore, unlike other uses within a refuge, which 
generally operate under year-to-year permits, utility rights-
of-way are long-term. By regulation, utility rights-of-way are 
granted for permit terms that can extend for as long as 50 
years. The lengthy term acknowledges that construction of a 
transmission line is a costly endeavor. An average, rule of the 
thumb estimate is that it costs $500,000 to $1 million per mile 
to build a transmission line in this country. The lengthy 
duration of a permit also recognizes that once the transmission 
line is operational, it is part of a grid that provides power 
throughout entire regions. The connection is part of a design 
to assure the reliable transmission of power, avoiding 
disruptions that could threaten public safety and health. Re-
routing of such grid-connected transmission lines can easily 
run into the millions of dollars--assuming arguendo that they 
can be re-cited and relocated at all in today's world. They 
should, therefore, not be compelled to move in the absence of 
clearly convincing site-specific rationale and supporting data.
    The benefit of the lengthy permit term for rights-of-way, 
however, does not flow just one-way. The length allows for the 
development of a long-term relationship between the local 
utility and the refuge, founded on a mutual commitment to 
problem-solving and cooperation on habitat and wildlife 
management issues.
    In 1994, Baltimore Gas and Electric Company (BG&E) 
completed construction of a 500 Kilovolt (KV) transmission line 
through the Patuxent National Wildlife Refuge, which is part of 
a transmission loop providing power to the Washington, D.C., 
metropolitan area, Annapolis and Baltimore. The project took 15 
years to complete, partially due to litigation on another loop 
segment. As part of the approval for the Patuxent line, BG&E 
was required to build a 15-acre wetland as a mitigation 
measure, but the resulting project has become, according to the 
Fish and Wildlife Service, the national model for creative 
wetlands development. BG&E went beyond basic requirements to 
construct a comprehensive 35 acre project, which include 27 
acres of unusual, high-quality wooded wetlands, ponds and 
nesting areas for migratory water fowl, and an extended viewing 
area that is now heavily used by Boy Scouts and school systems 
to educate American children on wildlife and habitat values. 
BG&E also contributed $100,000 to the support of the Fish and 
Wildlife Service's refuge visitors center.
    Of perhaps equal interest to this Committee, however, are 
the opportunities for research and experimentation that the 
right-of-way corridor provides to the Patuxent Refuge. It is 
being used for research on enhancing seeding and attraction of 
wildlife and to evaluate the success of created wooded 
wetlands, crop experimentation, and other ecological research. 
These activities are generally precluded on refuge lands. Thus, 
the presence of the right-of-way is fulfilling critical 
research needs that ultimately will benefit wildlife management 
and habitat protection not only in the local area, but also 
elsewhere in the country. The same type of productive 
relationship between EEI member companies and the Fish and 
Wildlife Service occurs through the Avian Power Line 
Interaction Committee, which focuses on the detection and 
prevention of bird interactions with power lines. The same 
group recently held a seminar for federal employees on this 
subject at the Patuxent Wildlife Refuge.
    Thus, EEI's comments are provided today, mindful both of 
the commitment of our member companies to cooperate in the 
fulfillment of the purposes of the refuges where they are 
located and their concern about how this legislation may 
affect, in the future, important transmission and distribution 
lines in their grid and are located on land subject to the 
jurisdiction of this bill.
    First, EEI is concerned about how the bill gives priority 
to wildlife-dependent recreational uses in refuges over other 
types of uses, appearing to require the subordination of other 
uses. For example, section 5 of the bill establishes the policy 
that ``compatible wildlife-dependent recreational uses are the 
priority general public uses of the System and shall receive 
priority consideration in refuge planning and management.'' It 
imposes a duty on the Secretary of the Interior to administer 
the refuge system in a way that ``ensure[s] that priority 
general public uses (of which wildlife-dependent recreation is 
the only one) receive enhanced consideration over other general 
public uses.'' Furthermore, Section 7 outlines elements that 
the Secretary must consider in developing the comprehensive 
plan for each refuge. Most of these relate to the primary 
wildlife protection purposes of the refuges, except for a 
requirement to identify the opportunities for compatible 
wildlife-dependent recreation.
    These provisions do not acknowledge or address long-
established existing uses, such as rights-of-way that have been 
determined in the past to be compatible and that provide an 
important service to the American public and, indeed, to the 
refuge itself Although the National Wildlife Refuge System Act 
being amended by the bill does explicitly authorize grants of 
easements within the system for such facilities as power, 
telephone, and other lines, EEI is concerned that the bill's 
prioritization of uses will lead refuge managers to be less 
inclined or less able to approve such rights-of-way. 
Specifically, we are concerned that wildlife-dependent 
recreational uses will get first and perhaps even exclusive 
priority, even if utility rights-of-way may be more benign or 
helpful in fulfilling the purposes of the refuge than those 
other uses. EEI believes that rights-of-way should also be a 
general priority use and not merely a subordinate use.
    Second, Section 6 of the bill expressly prohibits the 
Secretary from initiating or permitting uses of a refuge, or 
the expansion, renewal, or extension of an existing use on a 
refuge, unless the Secretary determines that the use is 
``compatible'' and ``not inconsistent with public safety.'' The 
bill requires the Secretary to issue regulations within two 
years of passage for determining whether a given use of a 
refuge is compatible. These regulations must require 
reevaluation of each non-wildlife-dependent use at least every 
10 years (or more often if conditions under which the use is 
permitted change significantly or there is new information 
regarding the effects of the use). Existing uses appear to be 
grandfathered until such time as they are modified.
    Under current law, the Secretary's authority to allow uses 
is permissive. H.R. 1420 and S. 1059, however, impose 
incorporates an absolute prohibition into the exercise of the 
authority, arguably making his determinations more easily 
subject to legal challenge. The provisions subjecting uses to 
regular compatibility reviews fail to recognize current policy, 
which allows certain uses of refuges to be appropriately 
permitted for extended periods of time (no more than 50 years 
for power lines and no more than 30 years for oil and gas 
pipelines). The current policy acknowledges that the longer 
time frames are needed in order to provide sufficient certainty 
for those uses to occur. As a consequence, the restrictive 
provisions in the legislation raise questions about the 
continued ability of the Fish and Wildlife Service to issue 
permits for periods longer than 10 years and about the validity 
of the longer-term permits that already have been issued. EEI 
has previously provided the Committee with suggested language 
to attempt to address this concern.
    Third, Section 8 of the bill gives the Secretary new and 
unfettered authority to ``temporarily suspend * * * any 
activity in a refuge * * * if the Secretary determines it is 
necessary to protect the health and safety of the public or any 
fish or wildlife population.'' The bill does not require 
procedural protections in the exercise of this authority, such 
as advance notice and an opportunity for the affected parties 
to respond or appeal the decision. It also does not require the 
Secretary to weigh the consequences of his or her actions in 
exercising the new emergency authority, including the public 
health and safety and economic effects of suspending an 
activity--which may be quite significant. Where power lines are 
concerned, since they cannot be casually shut down or easily 
moved. Inclusion of the new emergency authorities also does not 
recognize the host of other existing federal statutory and 
regulatory requirements and authorities that safeguard public 
health and safety and fish populations.
    As a result, we are concerned about the potential for 
arbitrary or inconsistent exercise of the emergency power 
authority, in particular as it pertains to utility rights-of-
way and other such long-term established, beneficial uses of 
the refuges. Even though the new grant of emergency powers may 
be appropriate for some uses, like hunting, it may not be 
helpful to pubic health or safety where transmission lines are 
concerned.
    Finally, EEI is concerned that many of the provisions of 
H.R. 1420 and S. 1059, including the new requirement for 
compatibility determinations and other administrative and 
management decisions to be made in light of the new mission of 
the refuge system, not just the individual purposes of each 
refuge, work together to change the scope of review regarding 
these decisions, if not also the actual standard of review. 
Coupled with the subordination of other uses to wildlife-
dependent uses, these provisions may adversely affect how 
wildlife managers can view rights-of-way, notwithstanding the 
current stated intentions of the Fish and Wildlife Service to 
view such rights-of-way favorably.
    EEI notes here that S. 1059 makes an important improvement 
to the basic text of H.R. 1420. That change in the definition 
of ``compatible use'' solves a related concern that H.R. 1420 
contained an internal ambiguity in the language that could lead 
to an interpretation that non-wildlife-dependent uses are, by 
definition, no longer compatible activities in a refuge. EEI 
supports the change contained in S. 1059.
    In conclusion, notwithstanding the concerns raised here, 
EEI and its member companies believe that S. 1059 makes some 
important changes in the public interest, even if a close 
reading of those changes suggest that they may not make 
complete sense for long-term uses like rights-of-way. EEI 
believes that the June 3 colloquy that occurred between 
Resources Committee Chairman Young and Rep. Saxton (on behalf 
of Mr. Goss) on the House floor, with the concurrence of the 
Fish and Wildlife Service, was an important step towards laying 
to rest the utility industry's concerns. The colloquy states 
the Committee's view and intent that the bill should not impact 
rights-of-way, nor create a higher standard for rights-of-way 
than exist at present. Only the process is being changed. 
Furthermore, as to rights-of-way, the colloquy interprets the 
requirement for fresh compatibility reviews every 10 years, at 
a minimum, to mean an examination of the permittee's 
``compliance with the terms and conditions of the permit,'' not 
the existence of the right-of-way.
    Because EEI and our member companies are concerned that the 
Fish and Wildlife Service may not be able to sustain this 
interpretation, to the extent it may be perceived as in 
conflict with the plain meaning of the language of the bill, 
EEI urges the Committee to incorporate language into S. 1059 
that reflects the interpretation stated in the House colloquy. 
Additionally, EEI urges the Committee to use such legislative 
tools as the Committee report and floor statements related to 
S. 1059, or other consideration of H.R. 1420, to restate the 
intent of the authors of the bill that rights-of-way not be 
adversely affected by the changes made to current law and 
should continue to be treated as an important public use and 
continue to be granted for the permit terms presently 
prescribed by regulation.
    Thank you for the opportunity to submit testimony and for 
the Committee's consideration of these views.
                                ------                                


Prepared Statement of the Interstate Natural Gas Association of America

                  wildlife refuge system improvements

    Mr. Chairman and Committee Members: The Interstate Natural 
Gas Association of America (INGAA) thanks you for this 
opportunity to submit our views on S. 1059, the ``National 
Wildlife Refuge System Improvement Act of 1997.'' By way of 
introduction, INGAA is a non-profit national trade association 
representing the interstate natural gas transmission companies 
operating in the United States and the interprovincial 
pipelines in Canada. Our member companies transport and deliver 
over 90 percent of the nation's natural gas though a nationwide 
system consisting of 280,000 miles of interstate pipeline.
    The legislation before the Committee today, and its 
companion bill in the House H.R. 1420, focus on the 
establishment of clear guidelines and goals for the nation's 
500 wildlife refuges. INGAA supports the overall ideals behind 
S. 1059 of continued protection of the refuges and their native 
species, and increased public enjoyment of these natural 
resources. INGAA is concerned, however, that the legislation 
may make it more difficult to site, and maintain, certain 
pipeline rights-of-way through wildlife refuges even if these 
rights-of-way are compatible with the primary purpose of 
protecting wildlife on these federal lands.
    The process of siting and building an interstate natural 
gas pipeline is not an easy one. Pursuant to the Natural Gas 
Act, the Federal Energy Regulatory Commission (FERC) has the 
authority to issue construction permits for interstate 
pipelines that are deemed to meet the public interest, 
convenience and necessity. As part of this permitting process, 
FERC works with the various federal, state and local entities 
with an interest in the proposed project. One of these parties 
is the U.S. Fish and Wildlife Service.
    To the extent possible, FERC and the pipeline operator 
attempt to avoid crossing wildlife refuges and other 
environmentally sensitive areas. When such crossings are 
necessary, however, FERC and the USFWS work to ensure that the 
pipeline crossings are accomplished with a minimum impact to 
the wildlife refuge. Since pipelines are typically buried 
several feet underground, the right-of-way can usually be 
returned to its natural condition within a short time and 
without any major impact to the native species of the refuge. 
When a construction permit is issued, it usually grants the 
pipeline the use of the approved right-of-way for a 30-year 
period.
    The pipeline operator may need access to the right-of-way 
from time to time in order to ensure that trees or other 
vegetation do not pose a threat to the safe operation of the 
pipeline. Other than a periodic inspection and/or maintenance, 
however, the pipeline operator does not need access to the 
wildlife refuge. Where ever possible, and usually pursuant to 
the construction permit, the pipeline operator works to ensure 
that impacts to the refuge and its wildlife are kept at a 
minimum.
    This process has worked well, protecting wildlife refuges 
while ensuring that natural gas pipeline projects that meet the 
public interest on a national level can be built. INGAA 
believes that pipeline rights-of-way, when constructed 
according to the permit issued by the FERC and approved by the 
USFWS, constitute a compatible use within a refuge. For this 
reason, we are concerned about the possible unintended 
consequences that could arise as a result of Section 6 of S. 
1059, new paragraph (3)(B)(vii), which would require a 
compatibility review of each existing use at least every 10 
years.
    INGAA believes questions relating to compatibility are 
addressed during the permitting process, and only those uses 
that are deemed to be compatible over a 30-year period are 
approved. Pipeline projects are, by their very nature, capital 
intensive. A pipeline operator needs to know that, once 
approved, a pipeline will be able to continue operation so long 
as the terms of the permit continue to be met. If, however, 
compatibility reviews are required at least every 10 years, the 
opportunity is created for those who oppose a given pipeline 
for competitive or other reasons to use the new compatibility 
process as a way to overturn a previously approved permit.
    In its Report to accompany H.R. 1420, the House Resources 
Committee noted that ``[t]here are numerous existing rights-of-
way on National Wildlife Refuge Systems lands for roads, oil 
and gas pipelines,'' and that ``[t]he Committee does not intend 
for this Act to in any way change, restrict, or eliminate these 
existing rights-of-way.'' The Resources Committee suggested 
that an expedited process for consideration of compatibility 
reviews created in new paragraph (3)(B)(v) be used to review 
these right-of-way uses in wildlife refuges. While INGAA 
appreciates the intent of the Committee, we continue to believe 
that, unamended, S. 1059 and H.R. 1420 could create unintended 
consequences which could detrimentally impact the continued 
operation of facilities which operate in the public interest.
    INGAA believes S. 1059 should recognize that pipelines, 
electric transmission facilities, and communications 
facilities, to name a few, are compatible uses within a 
wildlife refuge when these facilities are built and managed 
responsibly. We also support language which would, in the case 
of natural gas pipelines, require a compatibility review only 
when an operating permit expires. Questions regarding 
compatibility are dealt with in detail during the permitting 
process, and the USFWS is an integral part of that process when 
a refuge is impacted. Additional reviews do not add 
substantively to that process, and may create an opportunity 
for certain project opponents to continually tie up the process 
with endless requirements for reconsideration. INGAA does not 
believe this is the intent of the sponsors of this legislation.
    Finally, INGAA notes that Section 6, new paragraph 
(3)(A)(i) states that the Secretary of the Interior shall not 
approve a new use, or extend an existing use of a refuge 
``unless the Secretary has determined that the use is a 
compatible use and that the use is not inconsistent with public 
safety.'' While INGAA supports the overall goal of that 
section, it should be noted that in the case of interstate 
natural gas and hazardous liquid pipelines, the Department of 
Transportation (DOT) regulates safety-related matters. In 
addition, many state governments regulate the safety of 
intrastate and gas distribution facilities. We want to ensure 
that the Secretary of the Interior would work in conjunction 
with the relevant federal and state officials on any matters 
related to the safe operation of pipelines in wildlife refuges, 
in order to avoid confusion and misunderstanding.
    In closing, INGAA once again appreciates the opportunity to 
comment on this important issue. We support passage of S. 1059 
with the aforementioned changes, and would like to work with 
the Committee in perfecting this legislation.
                                ------                                

                     National Rifle Association of America,
                                  Institute for Legislative Action.
Hon. John H. Chafee,
Chairman, Environment and Public Works Committee,
Hart Building, Washington, DC.
    Dear Chairman Chafee: I would appreciate having this letter 
included in the record for the hearing held July 29, 1997 on S. 
1059, the National Wildlife Refuge System Improvement Act. The 
National Rifle Association of America (NRA) compliments the 
Committee for taking expeditious action on this bill.
    The NRA wholeheartedly supports S. 1059 for it recognizes 
the important role of the hunting community to the conservation 
mission of the Refuge System. Hunters' dollars have contributed 
to the expansion of the System from a 3-acre island created in 
1903 to a network of lands and waters that today comprise more 
than 92 million acres. In fact, America's hunters helped to buy 
three-fourths of the lands that have been purchased for the 
Refuge System. We have a special interest in all legislation 
affecting the Refuge System, including legislation that 
improves upon the original Refuge Administration Act which this 
``organic'' legislation does. The NRA has been involved in the 
development of an ``organic act'' for the Refuge System for the 
past three Congresses.
    The NRA fully supported H.R. 511 introduced earlier this 
year, as well as its predecessor which passed the House by a 
large margin in the 104th Congress. Recognizing the importance 
to our hunter/conservationist members of ensuring that 
compatible wildlife dependent activities are allowed in the 
Refuge System, the NRA strongly supported a provision of H.R. 
511 that would have made opportunities for these activities a 
purpose of the System. Although H.R. 511 ensured that these 
activities would have to be found compatible with the other 
purposes of the Refuge System and the purposes of the 
individual refuge before being allowed, the provision became 
the focal point of the Administration's opposition to the bill.
    During the negotiation sessions held by the Secretary of 
the Interior with the sponsors of the bill and representatives 
of the hunting, conservation, and environmental communities, 
language was agreed to which elevates wildlife dependent 
activities to a priority public use, rather than a purpose of 
the System. Although we had strongly advocated for the language 
of H.R. 511, the revised bill, introduced as H.R. 1420, 
achieves our objective of shielding the Refuge System from 
anti-hunting lawsuits such as the one filed in the 1980's 
claiming that hunting violated the ``refuge'' concept of the 
System.
    All interests at the negotiating table compromised in some 
measure on their original positions in order to create a bill 
that all could agree upon. Achievement of a consensus bill was 
reflected in the nearly unanimous vote in the House of 
Representatives last month on passage of H.R. 1420. The NRA 
joins with numerous and diverse organizations in strongly 
recommending that the Committee's action on S. 1059 be 
sensitive to the level of effort and commitment that has been 
invested to date and mirrored in the introduction of S. 1059. 
We urge the Committee to bring a bill to the Senate Floor 
without amendment or with only technical changes that maintain 
this hard won consensus.
    A strong and healthy system of lands that meets the needs 
of our wildlife resources and the community of people who have 
helped to create and perpetuate the System is a legacy for all 
of us to safeguard. Again, we appreciate the timeliness in 
holding a hearing and trust that the Committee will take action 
as soon as possible to help pass this legislation into law.
            Sincerely,
                                              Susan Lamson,
            Director, Conservation, Wildlife and Natural Resources.
  

                                <all>
</pre></body></html>
